<html>
<title> - OVERSIGHT OF THE TRUMP ADMINISTRATION'S BORDER POLICIES AND THE RELATIONSHIP BETWEEN ANTI-IMMIGRANT RHETORIC AND DOMESTIC TERRORISM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    OVERSIGHT OF THE TRUMP ADMINISTRATION'S BORDER POLICIES AND THE 
  RELATIONSHIP BETWEEN ANTI-IMMIGRANT RHETORIC AND DOMESTIC TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      IMMIGRATION AND CITIZENSHIP

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES


                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2019

                               __________

                           Serial No. 116-44

                               __________

         Printed for the use of the Committee on the Judiciary

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://judiciary.house.gov      
      
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-605                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------     
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
  Georgia                            STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
    Vice-Chair                       KELLY ARMSTRONG, North
SYLVIA R. GARCIA, Texas                Dakota
JOE NEGUSE, Colorado                 W. GREGORY STEUBE, Florida
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON IMMIGRATION AND CITIZENSHIP

                     ZOE LOFGREN, California, Chair
                PRAMILA JAYAPAL, Washington, Vice-Chair
J. LUIS CORREA, California           KEN BUCK, Colorado,
SYLVIA R. GARCIA, Texas                Ranking Member
JOE NEGUSE, Colorado                 ANDY BIGGS, Arizona
DEBBIE MUCARSEL-POWELL,              TOM McCLINTOCK, California
  Florida                            DEBBIE LESKO, Arizona
VERONICA ESCOBAR, Texas              KELLY ARMSTRONG, North
SHEILA JACKSON LEE, Texas              Dakota
MARY GAY SCANLON,                    W. GREGORY STEUBE, Florida
  Pennsylvania
                    David Shahoulian, Chief Counsel
                    Andrea Loving, Minority Counsel
                            
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 6, 2019
                           OPENING STATEMENTS

                                                                   Page
The Honorable Veronica Escobar, Texas, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     1
The Honorable Jerrold Nadler, New York, Chairman, House Committee 
  on the Judiciary...............................................     3

                               WITNESSES

Panel One
Ms. Jo Anne Bernal, County Attorney, El Paso County Attorney's 
  Office
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
Ms. Monica Munoz Martinez, Stanley J. Bernstein Assistant 
  Professor of American and Ethnic Studies, Brown University
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19
Ms. Alejandra Y. Castillo, Chief Executive Officer, YWCA USA
  Oral Testimony.................................................    36
  Prepared Statement.............................................    38
Panel Two
Mr. Shaw Drake, Policy Counsel, American Civil Liberties Union of 
  Texas, Border Rights Center
  Oral Testimony.................................................    71
  Prepared Statement.............................................    74
Ms. Linda Y. Rivas, Executive Director, Las Americas Immigrant 
  Advocacy Center
  Oral Testimony.................................................    88
  Prepared Statement.............................................    90
Mr. Fernando Garcia, Executive Director, Border Network for Human 
  Rights
  Oral Testimony.................................................    91
  Prepared Statement.............................................    93

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

TIME Magazine article entitled, `` `We Are Being Eaten From 
  Within.' Why America Is Losing the Battle Against White 
  Nationalist Terrorism,'' Submitted by the Honorable Sheila 
  Jackson Lee....................................................    60
Articles for the record entitled, `` `I'm in Danger': Migrant 
  Parents Face Violence in Mexico Under New Trump Policy''; 
  ``Trump's `Remain in Mexico' Policy Exposes Migrants to Rape, 
  Kidnapping, and Murder in Dangerous Border Cities'', and; 
  ``Central American migrants plead to seek asylum in U.S., not 
  Mexico''; Submitted by the Honorable Veronica Escobar..........   101
Articles for the record entitled, ``Trump Faces Long-Shot Bid to 
  Jail Migrant Families Indefinitely''; ``3 Reasons Why the New 
  Flores Rule Does Not Pass Legal Muster'', and; ``Immigrant 
  Advocate Weighs In On Trump Administration's Move To End Flores 
  Agreement''; Submitted by the Honorable Veronica Escobar.......   126
Report from the Women's Refugee Commissions, Submitted by the 
  Honorable Pramila Jayapal......................................   143

                                APPENDIX

Statement of the Honorable Sheila Jackson Lee....................   168
Supporting Documents for the Testimony of Mr. Fernando Garcia, 
  Executive Director, Border Network for Human Rights............   173
United States Senators letter to the Honorable Mike Pompeo and 
  the Honorable Kevin McAleenan regarding the Remain in Mexico 
  Policy, Submitted by Shaw Drake, Policy Counsel, American Civil 
  Liberties Union of Texas, Border Rights Center.................   174
Human Rights Watch report entitled, `` `We Can't Help You Here': 
  US Returns of Asylum Seekers to Mexico,'' Submitted by Shaw 
  Drake, Policy Counsel, American Civil Liberties Union of Texas, 
  Border Rights Center...........................................   178
Human Rights Watch report entitled, ``Delivered to Danger: 
  Illegal Remain in Mexico Policy Imperils Asylum Seekers' Lives 
  and Denies Due Process,'' Submitted by Shaw Drake, Policy 
  Counsel, American Civil Liberties Union of Texas, Border Rights 
  Center.........................................................   178
Intercept article entitled, ``An Asylum Officer Speaks Out 
  Against the Trump Administration's `Supervillain' Attacks on 
  Immigrants,'' Submitted by Shaw Drake, Policy Counsel, American 
  Civil Liberties Union of Texas, Border Rights Center...........   179
VICE News article entitled, ``Trump's Asylum Policies Sent Him 
  Back to Mexico. He was Kidnapped Five Hours Later By a 
  Cartel,'' Submitted by Shaw Drake, Policy Counsel, American 
  Civil Liberties Union of Texas, Border Rights Center...........   186

 
    OVERSIGHT OF THE TRUMP ADMINISTRATION'S BORDER POLICIES AND THE 
  RELATIONSHIP BETWEEN ANTI-IMMIGRANT RHETORIC AND DOMESTIC TERRORISM

                              ----------                              


                       FRIDAY, SEPTEMBER 6, 2019

                        House of Representatives

              Subcommittee on Immigration and Citizenship

                       Committee on the Judiciary

                              El Paso, TX.

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
the El Paso Natural Gas Conference Center, University of Texas 
at El Paso, 2051 Wiggins Way, El Paso, Texas, Hon. Veronica 
Escobar presiding.
    Present: Representatives Escobar, Nadler, Jayapal, Garcia, 
Neguse, and Jackson Lee.
    Staff Present: Madeline Strasser, Chief Clerk; Joshua 
Breisblatt, Counsel; and Rachel Calanni, Professional Staff 
Member.
    Ms. Escobar. The Subcommittee on Immigration and 
Citizenship will come to order. Without objection, I will serve 
as the substitute subcommittee chair in the absence of Chair 
Zoe Lofgren.
    In addition, without objection, the chair is authorized to 
declare recesses of the subcommittee at any time.
    We welcome everyone to this morning's hearing on Oversight 
of the Trump Administration's Border Policies and the 
Relationship Between Anti-Immigrant Rhetoric and Domestic 
Terrorism. We especially welcome all of our visitors who are in 
El Paso from out of town. Welcome to the safe and secure U.S.-
Mexico border.
    Before we begin, I would like to thank President Heather 
Wilson and the University of Texas at El Paso for the warm 
welcome and for allowing us to use this space for this very 
important hearing. Dr. Wilson, did you want to say a few words?
    Ms. Wilson. Please. Madam Chairman and Mr. Chairman, 
Chairman Nadler, members of the committee, welcome to UTEP. 
[Speaking foreign language.] UTEP is one of only 10 high-level 
research universities in Texas. We are the only Research I 
University in America that is predominantly Hispanic. But that 
is not all. Over 23,000 \1\ students study on our beautiful 
campus every day. [Speaking foreign language.] And with an 
annual tuition of about $9,000 a year, we are one of the most 
affordable universities in America. [Speaking foreign 
language.] We change lives and provide opportunity.
---------------------------------------------------------------------------
    \1\ Ms. Wilson requested this be changed to ``25,000.''
---------------------------------------------------------------------------
    Despite the recent events, we do this in one of the safest 
cities in America: El Paso, Texas. I hope you take time to 
enjoy our beautiful campus. We are very happy that you are 
here. Welcome to the University of Texas at El Paso.
    Ms. Escobar. Thank you for your hospitality, Dr. Wilson. We 
are very grateful for it.
    I would also like to thank Judiciary Committee Chairman 
Jerrold Nadler and Immigration and Citizenship Subcommittee 
Chair Zoe Lofgren for agreeing to hold this very important 
hearing here in El Paso and for allowing me the tremendous 
privilege of chairing it. It is my honor. And many thanks to my 
colleagues for making the journey to my hometown to be here 
with us today.
    I would like to recognize a special guest in the audience, 
one of the heroes and survivors of the Walmart massacre, Chris 
Grant, who tried to distract the killer and, as a result, was 
shot twice. We are very lucky that he is alive, and we are so 
happy that you are here with us, Chris. Would you mind standing 
up so that we can recognize you?
    And finally, to the panelists, thank you so much for 
joining us and sharing your wisdom with us today. We look 
foward to your testimony.
    I will now recognize myself for an opening statement.
    Unfortunately, it is only too fitting that this hearing is 
being held in El Paso, a place that has had to endure the 
target painted on our backs because of anti-immigrant rhetoric 
and a community that has been ground zero for the Trump 
administration's cruel immigration policies.
    Anti-immigrant rhetoric is on the rise today, and it is 
inflamed by President Trump. Criminals, rapists, drug dealers, 
that is how then-Candidate Trump described Mexicans when he 
launched his campaign. The rhetoric continued into his 
Presidency. In a meeting in the Oval Office, he described some 
African nations as, quote, ``shithole countries''' when 
discussing whether those nationals were worthy of immigration 
relief. He has called immigrants animals, and the rhetoric has 
only escalated over time. One study found that President Trump 
has used words like invasion and killer more than 500 times to 
describe immigrants.
    And the President's rhetoric influences public opinion. 
Recent polling from the Pew Research Center found that 57 
percent of Republicans and Republican-leaning independents say 
that the U.S. risks losing its identity if America is too open 
to foreigners. This number is up 13 percent since last year.
    Even more frightening is the xenophobic mania that is 
whipped up at the President's rallies when he uses the words 
that dehumanize. Many of us were absolutely stunned when, at a 
Florida rally in May, the President rhetorically asked the 
crowd what he should do with migrants who cross the border. One 
of the President's supporters yelled ``shoot them,'' and the 
President laughed.
    Research indicates that counties that hosted a Trump 
campaign rally saw a 226 percent increase in reported hate 
crimes over counties that didn't host those rallies. Well, 
President Trump hosted a rally in El Paso in February, and on 
August 3, a domestic terrorist drove over 600 miles to this 
safe and secure community where people of color are the 
majority--80 percent of us are Latino--and where immigrants 
make up a quarter of our population.
    The terrorist confessed that he came to El Paso to, quote, 
``target Mexicans and immigrants.'' He killed 22 people, 
injured dozens, and left an entire community in mourning. El 
Paso has a long journey ahead of her. Minutes before his 
attack, the terrorist posted a racist screed on the internet 
decrying, quote, ``an Hispanic invasion.'' Those words echo 
words President Trump has used in the past.
    Words have consequences. Policies have consequences. It 
should be no surprise that a President who calls immigrants 
animals can justify treating them as such. Children have died 
in U.S. custody. There has been horrific overcrowding in Border 
Patrol facilities. There has been force-feeding of adults in 
custody in fact happening now, happening today in El Paso at 
the ICE processing center. And there has been continued 
traumatic family separation.
    This administration has admitted to using cruelty as a 
deterrent, and that includes forcing migrants to wait their 
turn to apply for asylum in Mexico, a country that is not their 
own in what is called metering. And once they request asylum, 
they are forced back under the so-called migrant protection 
protocols, or MPP, to wait for their day in an American court. 
In the El Paso sector, migrants are left to defend for 
themselves in Ciudad Juarez.
    Through the casework assistance my office provides, we are 
aware of abuses with MPP. Vulnerable populations who should 
ostensibly not be subjected to MPP are being sent back, 
including Mexican nationals, pregnant women, and migrants with 
severe mental disabilities. Those sent back suffer harassment 
and danger. One father of a young family was kidnapped and 
beaten while trying to find diapers. Another young woman was 
kidnapped and raped by Mexican Federal police.
    In my eight and a half months in Congress, it is clearer 
than ever that this administration governs with cruelty. We 
must understand the human toll of these policies, the 
inhumanity and the indignities that immigrants suffer as we 
consider funding for the departments that execute those 
policies. And as for the anti-immigrant rhetoric, for many of 
us those words have become a matter of life and death.
    It is now my pleasure to recognize the chairman of the 
Judiciary Committee, the gentleman from New York, Mr. Nadler, 
for his opening statement.
    Chairman Nadler. Well, thank you very much.
    I want to begin thanking my esteemed colleague, 
Representative Escobar, for welcoming us to El Paso, for her 
commendable service on the Judiciary Committee, and for her 
deep commitment to representing the people of El Paso with 
strength and integrity and compassion.
    I also want to thank the University of Texas at El Paso for 
hosting us today for this very important hearing.
    For two and half years the Trump administration has issued 
an endless series of draconian immigration policies, some of 
which have been implemented, and some of which rightfully have 
been enjoined by the courts as contrary to our laws. These 
policies have had a devastating impact on immigrants here in 
the United States and also on those fleeing for their lives and 
seeking protection along our southern border.
    At the same time, this administration has used racist and 
inflammatory language against immigrants. The President has 
referred to immigrants as rapists, thugs, and animals, and has 
described the arrival of asylum-seekers as, quote, ``an 
invasion of our country,'' unquote. Language such as this is 
dangerous and can have tragic consequences. The perpetrator of 
the horrible mass shooting here in El Paso last month used the 
term invasion in his hate-filled manifesto and later told law 
enforcement officials that he was targeting Mexicans. I wonder 
what one of the sources of his ideas was?
    This community has not only borne the brunt of the 
administration's chaotic border policies, it is also grieving 
from the violent consequences of pervasive anti-immigrant 
rhetoric. Although I regret that we must continue to confront 
these issues, I cannot think of a more appropriate venue for 
this important hearing.
    When I was in El Paso earlier this year, I toured several 
points of entry, observed overcrowded Border Patrol facilities, 
and visited Immigration and Customs Enforcement detention 
centers. I also talked with several nonprofit organizations in 
the area and heard firsthand accounts as to how the 
humanitarian crisis is unfolding.
    Instead of addressing the root causes of migration, the 
violence that is going on in a few Central American countries, 
the threats, and competently managing the challenges at our 
border, the Trump administration has chosen to dehumanize 
immigrants and to exploit this crisis for political gain. In 
doing so, it has violated American laws and undermined American 
values. It has emotionally traumatized many children who have 
been torn from their families and held in unconscionable 
conditions. And it has promoted dangerous rhetoric that 
contributes to a climate of fear among immigrant communities 
and that at times has served as inspiration for violent attacks 
against immigrants.
    The administration's inhumane treatment of migrants must be 
viewed in the context of broader problems deep within the 
culture of our immigration enforcement system. These problems 
were aptly illustrated when racist and misogynist posts in a 
closed Facebook group of nearly 10,000 current and former 
Customs and Border Protection officers were recently exposed, 
posts that joke about migrant deaths and that disparage 
Congresswomen.
    The sheer size of this group and the fact that the chief of 
the Border Patrol Carla Provost was a member at one time of 
this group, indicates a culture of disdain and cruelty to 
immigrants that has deeply infected the agency that can only be 
exacerbated by the bigoted and hateful rhetoric emanating from 
the White House. When coupled with this rhetoric, it puts the 
safety of immigrant communities and those who are perceived as 
immigrants at even greater risk.
    This all reminds us of the anti-Semitic, anti-Italian, 
anti-Irish, anti-Catholic, and anti-Asian rhetoric that has 
stained our country at times in the past and gave rise to 
racist immigration laws in the late 19th and early 20th 
centuries. There must be accountability for the policy choices 
that got us here.
    The Trump administration has repeatedly claimed that the 
abhorrent conditions and policies at the border are necessary 
to manage increased numbers of asylum-seekers. But let us be 
very clear about this. We have the capability to safely process 
these migrants and to manage the situation with compassion 
rather than with cruelty and racism and illegal actions.
    Instead, the administration has opted for policies that 
compromise human safety and that exacerbate the crisis, 
policies such as locking up asylums-seekers and denying them 
bond hearings; policies such as the so-called migrant 
protection, in quotes, protocols, which have forced tens of 
thousands of asylum-seekers into unfamiliar and often dangerous 
communities in Mexico; and metering, which arbitrarily limits 
the number of people who can apply for asylum at official ports 
of entry each day and forces them to enter irregularly between 
these ports, subjecting them to further danger.
    I am eager to hear from each of our witnesses today, and I 
thank them for offering their perspectives on the 
administration's border policies and the disturbing rise in 
anti-immigrant rhetoric in this country, including from this 
administration.
    I thank the chair for arranging to hold this important 
hearing, and I yield back the balance of my time.
    Ms. Escobar. Thank you, Chairman Nadler.
    Without objection, all other opening statements will be 
included in the record.
    There will be two panels of witnesses for today's hearing. 
The first panel will discuss the relationship between the rise 
of anti-immigrant rhetoric and domestic terrorism. The second 
panel will focus on the Trump administration's border policies. 
I will now introduce the first panel of witnesses.
    Jo Anne Bernal joined the El Paso County Attorney's Office 
in 1993. In 2009 she was appointed as the first female county 
attorney in El Paso's history and is currently the only female 
attorney board-certified in civil trial law in El Paso. Prior 
to joining the El Paso County Attorney's Office, she served as 
an assistant attorney general in the Law Enforcement Division 
of the Texas Attorney General's Office for six years. As county 
attorney, Ms. Bernal supervises approximately 100 employees, 
including 44 attorneys who practice both civil and criminal 
law.
    Over the course of her career, she has demonstrated her 
commitment to ensuring that all victims of crime, including 
undocumented victims, are treated with dignity and respect and 
protected with the full force of law. Ms. Bernal was born and 
raised in El Paso and received her undergraduate and law 
degrees from the University of Texas at Austin.
    Next, we have Dr. Monica Munoz Martinez. Dr. Munoz Martinez 
is an award-winning author, educator, and historian. An Andrew 
Carnegie fellow, Ms. Martinez is the Stanley J. Bernstein 
assistant professor of American studies and ethnic studies at 
Brown University where she is also a faculty fellow at the John 
Nicholas Brown Center for Public Humanities and the First-
Generation College and Low-Income Students Center. Her research 
specializes in histories of violence and policing on the U.S.-
Mexico border, among other subjects.
    Last year, she published a book entitled The Injustice 
Never Leaves You: Anti-Mexican Violence in Texas, which 
analyzes many of the trends we will be discussing in this first 
panel. Professor Martinez is also a founding member of the 
nonprofit organization Refusing to Forget that calls for public 
commemorations of anti-Mexican violence in Texas. She received 
her B.A. from Brown University and her Ph.D. from Yale 
University.
    And we have Alejandra Castillo, who has served as the chief 
executive officer at the YWCA USA since August of 2017. 
Previously, she served in senior leadership positions in two 
Presidential administrations and is an experienced attorney 
working in the public, private, and nonprofit sectors. Ms. 
Castillo served as senior White House advisor for the Office of 
National Drug Control Policy under the Clinton Administration. 
In 2014 she was appointed by the Obama administration to serve 
as the national director of the Minority Business Development 
Agency, becoming the first Hispanic-American woman to lead the 
agency. Ms. Castillo received her B.A. from the State 
University of New York at Stony Brook, her M.A. from the 
University of Texas at Austin, and her J.D. from American 
University.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing. Now, if you would 
please rise, I will begin by swearing you in.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    Let the record show the witnesses answered in the 
affirmative. Thank you, and please be seated.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in five minutes. To help you 
stay within that time, our staff will be timing you on an iPad 
and will raise the iPad when you have one minute remaining.
    Ms. Bernal, you may begin.

TESTIMONIES OF JO ANNE BERNAL, COUNTY ATTORNEY, EL PASO COUNTY 
ATTORNEY'S OFFICE; MONICA MUNOZ MARTINEZ, STANLEY J. BERNSTEIN 
  ASSISTANT PROFESSOR OF AMERICAN STUDIES AND ETHNIC STUDIES, 
 BROWN UNIVERSITY; AND ALEJANDRA Y. CASTILLO, CHIEF EXECUTIVE 
                       OFFICER, YWCA USA

                  TESTIMONY OF JO ANNE BERNAL

    Ms. Bernal. Thank you. Good morning, Honorable Chair 
Escobar, Honorable Chair Nadler, and members of the Judiciary 
Committee. Welcome to El Paso. We are very honored to have each 
of you here today.
    El Paso has found itself in the midst of a perfect and 
terrible storm. As you know, a little over a month ago a man 
drove into our city to kill our citizens because of the color 
of our skin. The hatred that motivated that man did not start 
that day. There has been a confluence of factors that 
precipitated the hostility that we saw in our community. This 
is a hostility towards immigrants and towards brown people, but 
that hostility must be viewed through the prism frankly of 
governmental conduct.
    We are all familiar with the hateful rhetoric discussed 
somewhat this morning that permeated the 2016 Presidential 
campaign, beginning with the declaration that Mexico was 
sending criminals, rapists, and drug smugglers to the United 
States and proceeding with a constant barrage of rhetoric about 
the need for the border wall. The reference to an invasion from 
the south can only make people fearful.
    Trump administration's actions--putting children in cages, 
separating children from their parents, holding immigrants in 
conditions that are inhumane--reinforces his dehumanization of 
brown people. A common thread is that brown people, Mexicans, 
central Americans, are bad, are to be feared, are to be hated, 
are to be caged and to be sent back where they came from.
    In February 2017, barely a month after the President took 
office, Federal immigration officials entered the El Paso 
County courthouse, proceeded to a court specifically designated 
as the protective order court, and detained an undocumented 
victim of domestic violence who was seeking protection from her 
abuser. The victim was removed from our courthouse by Federal 
officials and detained initially on immigration violations.
    The very public and aggressive arrest is consistent with 
this President's urgency to treat immigrants like criminals and 
justify the need for the border wall and the detention of 
immigrant families. It was a stunning and unprecedented event 
in El Paso. A victim is deserving of protection regardless of 
her legal status, and a criminal is deserving of prosecution 
regardless of whether he has abused a citizen or a noncitizen 
in our community.
    The incident went viral, and immediately, victims who were 
scheduled for a protective order hearing began to cancel their 
hearing dates because they were afraid to come into our 
courthouse. The incident has had a real and demonstrable 
chilling effect in El Paso. What we experienced in El Paso were 
Federal agents with a perceived license to take any steps they 
deemed necessary to round up undocumented victims. This 
perceived license for aggression comes from the top.
    And while Federal authorities were ramping up the rhetoric 
and conduct against immigrants and Mexicans, the anti-immigrant 
rhetoric on the stateside was similarly front and center. Only 
months after Trump took office, the Governor of Texas signed a 
bill into law that is commonly referred to as S.B. 4. At the 
time, S.B. 4 was considered the most dramatic State crackdown 
yet on so-called sanctuary cities, and it came in a moment when 
the Trump administration had sought to do the same at the 
Federal level. S.B. 4 essentially prohibited local governments 
from doing anything that limited local law enforcement officers 
to enforce immigration laws. S.B. 4 contained provisions that 
criminalized a public official's actions in interfering with 
the enforcement of immigration laws.
    It was marred by hateful rhetoric from the start. One of 
the authors of S.B. 4 is on record saying that one of the 
reasons and the need for the law was to get bad people. The 
author of the bill explained on the record that bad people were 
the illegals who needed to go home. The law was not directed at 
felons and drug traffickers and human smugglers. It was 
directed generally at illegals.
    El Paso has been ground zero in the immigration battle. 
Thousands of refugees from Central America have found their way 
to the United States through El Paso. Both State and Federal 
governments have sent an influx of military and law enforcement 
into our region, and the militarization of our border is our 
new normal.
    It has been publicly reported that the shooter in El Paso 
complained about the Hispanic invasion. Note, please, that it 
was not an immigration invasion. It was not an illegal invasion 
or an undocumented invasion. It was not a complaint about drug 
dealers or human traffickers. It was reference to Hispanics. 
The bigotry and hate in the form of speech and government 
conduct have fueled the flames of violence, and we 
unfortunately are the targets. And this simply should not be 
the role of government in our country. Thank you.
    [The statement of Ms. Bernal follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. Thank you, Ms. Bernal.
    Dr. Munoz Martinez.

               TESTIMONY OF MONICA MUNOZ MARTINEZ

    Ms. Munoz Martinez. Good morning. Honorable Chair Escobar, 
Chair Nadler, and members of the committee, I am so honored to 
be with you here today. Thank you for holding this urgent 
hearing. I am a historian, author, and a professor. My book The 
Injustice Never Leaves You recovers a period of racial terror 
between 1910 and 1920 when Mexican Americans and Mexican 
nationals were targeted with racial violence. Hundreds of 
people were killed, men, women, and children. People who 
witnessed this era frequently referred to it as La Matanza, the 
massacre.
    There were three urgent historical lessons for today. 
First, 100 years ago, anti-immigrant and anti-Mexican rhetoric 
fueled an era of racial violence by law enforcement and 
vigilantes. Second, racist rhetoric shaped immigration policies 
and Jim Crow laws targeting Mexican Americans. And third, 
legislators and the judicial system failed to correct the 
course of history, and violence continued throughout the 20th 
century.
    This was an era of State-sanctioned racial violence. 
Politicians and law enforcement used anti-Mexican rhetoric to 
fuel fear of the border and fear of border communities. People 
who looked Mexican were described as inherently violent, un-
American, as bandits, and murderers. Even in death, victims 
were criminalized by police reports and in the media.
    In 1919, U.S. Congressman Claude Hudspeth of west Texas 
described hordes of Mexican bandits just south of the border as 
an ever-present threat. He publicly justified State police 
officers shooting Mexicans on site. He testified under oath, 
quote, ``You have got to kill those Mexicans when you find them 
or they will kill you.''
    But politicians went beyond rhetoric. They funded the 
militarization of the border and Texas Governors offered their 
pardoning power to State police who committed crimes. Law 
enforcement and vigilantes enjoyed a culture of impunity. Three 
cases showed that either class, age, gender, or citizenship 
protected people who looked Mexican.
    In September 1915 in south Texas two landowning American 
citizens, Antonio Longoria and Jesus Bazan, met with State 
police to report that they had been robbed. While returning 
home, the two men were shot in the back by a posse that 
included a State police captain. There were no investigations. 
No one was ever prosecuted.
    In January 1918 a group of Texas Rangers, U.S. soldiers, 
and civilians traveled to Porvenir in west Texas and arrested 
15 men and boys. The Texas Rangers then massacred the 15 
prisoners in cold blood. Despite investigations by Mexican and 
U.S. Governments, no civilians or officers were ever 
prosecuted.
    In April 1919, Concepcion Garcia was shot by a U.S. soldier 
when she crossed the Rio Grande into Mexico to return home. A 
military court found the soldier guilty of manslaughter, but 
months later President Woodrow Wilson ordered that the soldier 
be freed and reinstated for military duty. Concepcion was nine 
years old.
    There are thousands of records that shed light on this 
history thanks to politicians, sheriffs, diplomats, and 
attorneys, Anglos and Mexicans that tried to end this violence. 
Sheriff William Vann, for example, publicly testified to the 
murder of innocent people and tried to have the State police 
removed from Cameron County. Many of the leaders were 
surveilled and intimidated.
    In 1919 State Representative Jose T. Canales, the sole 
Mexican American elected to State office in Texas, led a 
congressional investigation into abuse by the State police. He 
himself received death threats from law enforcement. That 
legislative committee concluded that the officers were, quote, 
``guilty of and are responsible for the gross violation of both 
civil and criminal laws of the State.'' And yet officers were 
not prosecuted for crimes, and there was no admission of guilt 
or wrongdoing by the State.
    One hundred years ago, elected officials heard accounts of 
injustice taking place in the name of national security, and 
they heard calls for change. They could have heeded the calls 
for justice. Instead, they chose to maintain the status quo, 
ensuring that racial violence and hate would continue. 
Moreover, racism took shape in Jim Crow laws that segregated 
and disenfranchised Mexican-Americans and in restrictive 
immigration policies.
    Today, I urge you to learn from these lessons of history, 
to heed the ongoing calls for social justice. History teaches 
us that failing to act will ensure that suffering, violence, 
and death will continue, patterns of violence will persist, and 
the impact will be felt for generations to come. Thank you for 
your time.
    [The statement of Ms. Munoz Martinez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. Thank you so much. Ms. Castillo.

               TESTIMONY OF ALEJANDRA Y. CASTILLO

    Ms. Castillo. Good morning. Buenos dias. Chairwoman 
Escobar, Chairman Nadler, and members of this esteemed 
committee, thank you for the introduction.
    As CEO of YWCA USA, I represent the oldest and largest 
women's organization in the country. We are on the ground in El 
Paso, Texas; in Dayton, Ohio; and in some 1,300 communities 
across the Nation. We have been at the forefront of the most 
pressing social movements for more than 160 years.
    Today, I appear before you to testify about the critical 
issue of anti-immigrant rhetoric and its link to domestic 
terrorism. I would especially like to thank Chairwoman Escobar 
and her dedicated staff for their leadership and service to the 
people of El Paso.
    I am pleased to be joined here today by Dr. Sylvia Acosta, 
CEO of YWCA El Paso, El Paso del Norte Region, as well as 
members of her board and staff.
    YWCA El Paso has been part of this community since 1909. 
Dr. Acosta and her team have been working with numerous 
partners as this community struggles to provide respite and 
return of dignity to migrants caught up in this immigration 
crisis, as well as to help heal an entire community after the 
aftermath of August 3 massive shooting. I am forever grateful 
for their deep commitment in advancing YWCA's mission of 
eliminating racism and empowering women.
    Just this week, Dr. Acosta shared with me that increased 
anti-immigrant rhetoric is directly impacting our youngest 
generations. She shared that children attending YWCA El Paso's 
afterschool and early-learning academies are afraid of going to 
jail or being killed because of their Mexican ancestry. Many 
also express anxiety about their potential deportation of their 
parents, regardless of their immigration status. These are 
children as young as four years old. And across the country in 
our YWCA Seattle King Snohomish County Maria Wilcox tells us 
kids are afraid to go to school because of gun violence. No 
child, I repeat none, no matter their race, age, or gender, 
should go to school and live in a climate with these growing 
fears.
    Each day across this great Nation, across this country that 
I love, YWCAs get up and do the work of supporting those most 
impacted by racial and gender-based violence. Given our 
expertise and extensive work in communities, I want to 
highlight three critical areas this morning that are further 
detailed in my written statement.
    First, words that we utter do matter, and the acts of hate, 
terror, and dehumanization are fueling an epidemic of domestic 
terrorism that is linked to a deep history of racial violence 
in our Nation. Today, the vitriolic anti-immigrant rhetoric is 
unfortunately not new. We have a long history of creating walls 
to push out those that we deem ``other.'' To demonize, 
stereotype, and marginalize waves of European immigrants in the 
19th and 20th century experienced this, and today, we are 
singling out people seeking refuge and asylum by calling them 
names and putting them in cages. We have been down this road 
before, and yet we find ourselves repeating history. We can do 
better.
    Second, our communities are reeling from the trauma 
inflicted by a confluence of gun violence, racist rhetoric, 
misogyny, and gender-based violence. These are the interrelated 
issues that lie at the heart of America's surge in domestic 
terrorism. Make no mistake, El Paso, Dayton, and so many other 
mass shootings are acts of domestic terrorism propelled by 
racism, misogyny, and easy access to weapons of war. These 
correlations are a key aspect of the crisis that can and must 
be addressed.
    Third, when communities are traumatized by racist rhetoric 
and the violence of domestic terrorism, community healing is 
imperative. Acts of violence both cause and compound trauma, 
particularly when communities are already grappling with racism 
and social economic challenges. YWCAs are part of the fabric of 
communities hardest hit by domestic terrorism, and we stand in 
lockstep with many nonprofit organizations throughout the 
country who are picking up the shattered pieces.
    In El Paso YWCA is working with Hispanics and philanthropy, 
Las Americas, and many other partners. Together, we are all 
bringing our collective resources and expertise to bear to 
address this crisis. Our hope with this strong collaboration is 
to model strength in numbers, to show our country how the 
partnership of many not only brings us together but also makes 
a difference in how the community is prepared and able to 
respond to tragedy and human crisis with compassion, dignity, 
and with a focus on improving outcomes for all.
    Madam Chairwoman and Mr. Chairman, today, we find ourselves 
at a pivotal juncture as we search to define and defend the 
values that constitute the soul of our Nation. Through 
education, accountability, and swift action by Congress, we can 
take steps towards ending these systemic acts of violence in 
our communities and give true meaning to our Nation's motto e 
pluribus unum.
    Thank you for the opportunity to testify today on behalf of 
YWCA, and I look forward to your questions.
    [The statement of Ms. Castillo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. Thank you all so much for your testimony. We 
will now proceed under the five-minute rule with questions. I 
will begin by recognizing myself for five minutes.
    And my first question is for Ms. Bernal. Ms. Bernal, you 
are an El Pasoan. You live here. You were born and raised here. 
You work here. I think what is critically important for me 
anyway about this hearing is that America understand the 
consequences of what is occurring. Would you please share with 
us with as much detail as you possibly can what you are hearing 
from your constituents and from your clients about the massacre 
at Walmart and the words that you talked about that did not 
fuel the--I don't want to give the individual an excuse. The 
domestic terrorist is responsible for his behavior--but that 
have fueled the crisis that we are in in this country?
    Ms. Bernal. Thank you, Chairwoman Escobar. There has been a 
real and palpable change in El Paso. For those of us that grew 
up here, I think anyone will tell you that El Paso is one of 
the least racist, least bigoted communities that you could ever 
live in. We don't really see skin color, and maybe it is 
because so many of us are so brown, right? We don't see skin 
color. Everyone that has grown up in El Paso has intermarried 
with non-Hispanics and have children and nieces and nephews who 
we call, you know, half Hispanic, half white. We don't see 
that. The point that has been driven home from the shooting is 
that we realize that the rest of the world sees us differently.
    I am a mother of two children who are half white, and they 
were raised proud Latinas. For the first time in my life it 
occurred to me that they might be a little safer because they 
don't look as brown as me, and that is a really sad thing to 
acknowledge.
    The constituents that I speak to are still--they are still 
frightened. They are still afraid. Many people are still afraid 
to go to Walmart, to crowded malls. I know people that are 
afraid to go to memorial sites because they feel like they are 
a target. You know, there are a lot of Hispanics in one place, 
and they are sitting ducks.
    So it has changed the way we feel about our security in 
such a safe city, and it is unfortunate they have opened our 
eyes to realize that others don't see us the same way we have 
always seen others, that somehow the rhetoric directed at 
Latinos and at immigrants and at brown people implies that 
Hispanics are just a little less American, that we are not 
quite as American as others in the country, and it has been a 
very eye-opening and really sad, I think, experience for many 
of us in the community and many of my constituents who feel 
that this new normal is not the way--it is not the way that we 
used to live, and it is not the way we want to live.
    Ms. Escobar. There is an irony in what is happening that I 
would like for you to help folks understand. If there is this 
national fear being whipped up by the President and his 
enablers about immigration but really is El Paso and other 
border communities that have been feeling the impact of 
significant numbers of families who are knocking on our front 
door. So we are the ones who, more than any other community in 
the country, really feel the consequence of large numbers of 
immigrants knocking on that door. In the face of hysteria 
elsewhere, how has El Paso chosen to react?
    Ms. Bernal. As a prosecutor, I want to be clear that I 
don't know anyone in this border community that supports open 
border policies that would allow criminals and drug smugglers 
and people that are designed to hurt this country come into 
this country. So, first and foremost, I think that we need to 
dispel this idea that because you are Hispanic you want open 
borders and every criminal from any part of the country to come 
into our community. We want a safe country, too. And what we 
need is comprehensive, reasonable immigration reform.
    We can't make that happen locally, but what we can do is 
when thousands of refugees and immigrants show up at our 
doorstep, we can feed them, we can clothe them. One of the 
untold stories I think is the incredible amount of love and 
support that El Pasoans stepped up when the rest of the country 
and frankly policymakers wouldn't change policies or wouldn't 
direct resources. El Pasoans stepped up. There were thousands 
of El Pasoans who made meals, who put packets together with 
toothpaste and toothbrushes, who donated clothes, who drove 
people to the airport to help on a humanitarian level, 
recognize that although we may not be able to change 
immigration law, we can make sure that the United States 
remains a humanitarian bastion where people can come and they 
won't be vilified. And at least in this community El Pasoans 
opened their wallets and their hearts and reached out to them.
    Ms. Escobar. Thank you so much. My time has expired. I now 
recognize our esteemed chairman from New York, Representative 
Nadler.
    Chairman Nadler. Thank you, Madam Chair.
    Professor Munoz Martinez, in your testimony you gave us a 
very helpful history of some of the anti-immigrant and anti-
Mexican violence in Texas. Can you tell us how did the 
political rhetoric of the time contribute to the culture and 
shape immigration policies and practices of that era?
    Ms. Escobar. And I apologize, we have to remember to keep 
speaking into the mic clearly and loudly so that Facebook picks 
us up.
    Ms. Munoz Martinez. I agree. Well, I can give an entire 
lecture, teach a class on that. But really quickly, I will say 
that one of the--there were many features that created a 
context that allowed violence to continue. On the one hand, 
this racist rhetoric represented Mexicans to people across the 
country who had never encountered a Mexican before. And the 
misrepresentations of people by calling them criminals and by 
calling them un-American and presenting them as people who do 
not deserve the protection of American citizenship meant that a 
nation for the large part agreed with that.
    And so there were people in communities along the border 
who demystified that just by the very nature of who they were. 
They were educated, they had been in the border regions for 
generations, they were active in politics, and so some of the 
racial violence was specifically to dismantle this border 
community and remove Mexican Americans from having any economic 
or cultural or political power.
    But this violence also corrupted law enforcement and the 
judicial system, and so this meant that when politicians and 
leaders dehumanized people, that police also dehumanized them 
and didn't recognize their humanity. And during this period 
Texas Rangers and local law enforcement were understood to be 
judge, juries, and executioners.
    Chairman Nadler. You said this period. What period are you 
referring to?
    Ms. Munoz Martinez. In the early 20th century, so 100 years 
ago during the spirit of racial violence that has been referred 
to as massacre of anybody who looked Mexican, whether they were 
American citizens or Mexican nationals, and so people were 
denied due process, they were denied the presumption of 
innocence. But that racist rhetoric also shaped policy, so it 
wasn't just a vigilante violence; it was violence by law 
enforcement and violence in the law.
    Jim Crow laws were passed to disenfranchise Mexican 
Americans from voting. Laws were passed to discourage 
intermarriage to make it illegal, and anti-immigrant 
legislation was passed to restrict immigration like the 1924 
Immigration Act that was inspired by eugenicists and by 
nativists. And so I am horrified when I hear current 
administration members referring to that act as a model. It 
should give us all pause and call us to action to look at the 
immigration policies that are being enacted and the harm that 
is being caused.
    And one of the other historical patterns that has reemerged 
that is important to consider is the disavowal of suffering of 
humans that was so pervasive in the early 20th century that was 
very effective in allowing the national public for these acts 
of racial violence to continue. People actually celebrated it 
and thought it was progress. And so when you have the 
dehumanization of people and the denial of rights of those 
people is quite easy to take place. And so now that we have a 
national conversation and awareness of the inhumanity that has 
taken place in our name, in the name of the U.S., we have to 
act.
    Chairman Nadler. Thank you very much. Ms. Castillo, you 
have--and let me just say when you referred to the 1924 act 
which was racist, anti-Semitic, et cetera, I remember watching 
and hoping for its repeal when I was in high school, which is 
when it happened, 1965.
    Ms. Castillo, you have frequently spoken out against 
various Trump immigration policies such as the zero-tolerance 
family separation policy and the administration's stance on 
access to asylum for individuals with credible fear of domestic 
violence or gun violence, organic violence rather. These 
policies that bar access to entry for vulnerable individuals 
have contributed clearly to anti-immigrant rhetoric in America. 
Can you discuss how these policies specifically target women 
and victims of violence and how that shapes perceptions of 
immigrants here in the country?
    Ms. Castillo. Thank you for the question. Yes, so we know 
data that we have from the United Nations and other sources. We 
know particularly El Salvador, Guatemala, Honduras have first, 
third, and seventh place respectively in female homicide. And 
the reason that we as YWCA are so keen about this is because 
many women try to move from one village to another fleeing 
their domestic partners because of fear of gender-based 
violence. So their first approach is to flee their villages, 
but most of them are fleeing the country in search for a better 
opportunity for themselves and for their children. So the issue 
of domestic violence is real. We have to take it very 
seriously.
    And I will tell you, I will draw on the history of the 
YWCA. We stood on Ellis Island helping immigrant women coming 
from Europe because we knew that even then the issue of 
domestic violence and gender-based violence is something that 
is so keen for women. So we are true to our mission then, as we 
are today, and that is why when we see the changes in policies, 
when we are seeing women fleeing from Central America looking 
for asylum and refugee and our country has now changed the way 
we treat women, we have to stand up. So these issues are 
critically important.
    And I will take this opportunity to also ask Congress to 
reauthorize VAWA, the Violence Against Women Act. It is 
shameful that we haven't done that yet, and this permeates not 
just for women in the U.S. but how we treat women and how we 
stand up for women.
    Chairman Nadler. Thank you. You know, of course, that this 
committee reported the reauthorization of the VAWA and that the 
House passed it. And we are waiting breathlessly for the 
Senate's breakneck pace to get to this issue.
    My time is expired. I thank you.
    Ms. Escobar. Thank you, Chairman. I now recognize my 
distinguished colleague from Washington, Representative 
Jayapal.
    Ms. Jayapal. Thank you, Madam Chair, and thank you all so 
much for being here and for your testimony.
    I think it was you, Ms. Bernal, who, in your testimony, 
talked about the perceived license for aggression. And, Dr. 
Munoz Martinez, you spoke about dehumanization. And the 
chairwoman in her opening comments talked about all the 
different ways in which this President has given that license 
for aggression.
    I would just remind the audience that this is a President 
who actually selected a portrait of Andrew Jackson to grace his 
office. This is Andrew Jackson, proslavery President who 
perpetuated genocide against Native Americans, so this is the 
context in which we are working today.
    And the threats of white nationalist terrorism have been 
clear really for some years since this President was elected. 
Hate groups have expanded. They have become more organized. We 
have seen the data for that directly. Perpetrators of hate 
crimes have routinely invoked the President's name in an uptick 
of hate violence so drastic that scholars have actually dubbed 
it the Trump effect. And recent mass shooters--obviously you 
know better than any--have had these racist and anti-immigrant 
agendas, and yet the administration has actually done nothing. 
They have in fact done the opposite. They have directed the FBI 
not to focus on countering this and rooting out this kind of 
white nationalist terrorism.
    So I wanted to start with Ms. Castillo and also Ms. Bernal. 
I am going to ask both of you to weigh in on this question. Ms. 
Castillo, you have members and organizations in 1,300 
communities across the country. You have talked about the 
effects of this on your members. Ms. Bernal, you have also 
referred to this. Can you talk about the direct ways and impact 
of that fear on your community members, on your organizational 
members in terms of, say, the services they seek, the ability 
to go to school, you know, whatever impacts you are seeing? Can 
you help this committee understand exactly what those are?
    Ms. Bernal. Thank you, Congresswoman, for that question. In 
my capacity as county attorney, one of the things that is most 
difficult is to quantify, right, the negative, how many victims 
are not coming forward. Very often, I think people that don't 
live in predominantly--or communities with a high immigrant 
population don't realize that most families are mixed, right? 
And so very often what you see is in our situation when we had 
Federal authorities in the courthouse, it wasn't just 
undocumented immigrants who were afraid to step forward to seek 
protection. We had U.S. citizens who had filed for protective 
orders but that who were fearful to come into the courthouse 
because one of their children might be undocumented, one of 
three children.
    And so what we are seeing--before the incident, we were 
seeing a pretty steady rise of about 15 percent annually in the 
number of women seeking protective orders. Immediately 
following the raid in the courthouse there was a sharp decrease 
within the next six weeks to two months. And since then over 
the last two years we have continued to see a steady decrease 
in the number of people availing themselves of protection that 
they are entitled to under the law.
    And so what we are afraid of is that there are no national 
statistics that would suggest that domestic violence is on the 
decrease. What we know is that we have victims that are not 
coming into the courthouse to seek protection.
    Ms. Jayapal. Thank you. Thank you. Ms. Castillo?
    Ms. Castillo. Congresswoman, let me tie these two 
communities, El Paso and Dayton. And the Congresswoman knows I 
was here 36 hours before the shooting occurred, and within 24 
hours of the shooting in El Paso, Dayton happened. I am going 
to bring the story of Dayton because Dayton had--the Ku Klux 
Klan targeted Dayton. A hospital shut down in an African-
American community and left it without any services. A tornado 
hit that community and housings were--I am talking to you about 
how compounded issues and then you have a fear and anxiety 
coming from the highest level of our government, the anxiety 
that people are feeling. And I just told you about the youngest 
generations among us. How can Americans be growing up in a 
country with such abundance and grow up with such fear of each 
other and of its own government?
    And I will tell you, as service providers, service 
providers are also facing trauma. And we need to provide them, 
too, because we do not have the tools or the wherewithal. The 
deluge is coming too fast and furious. And as someone who is 
pushing forward an organization of this breadth, I worry who 
among our YWCAs is going to break? It is too much to bear. And 
we need some responses. The nonprofit community is picking up 
the pieces, and we do not have the resources coming from our 
Federal government to pick these pieces up and put it together 
in a way that really showcases who we are as a Nation.
    Ms. Jayapal. Thank you so much. My time is expired. I yield 
back, Madam Chair.
    Ms. Escobar. Thank you. I now recognize my esteemed 
colleague, the gentlelady from Texas, Representative Garcia.
    Ms. Garcia. Thank you, Madam Chair, and thank you to all of 
the panelists. It has really been almost heartbreaking hearing 
some of the testimony that you have presented this morning, and 
I really do appreciate the historical context and the real 
context on the ground. And hopefully, people across America 
will better understand what is really going on in our country.
    The Trump administration's immigration policies have had a 
significant impact not only here but in migrant and border 
communities throughout our country, resulting in anti-immigrant 
rhetoric becoming common in public discourse. It is just too 
common in public discourse. We all acknowledge that there is a 
humanitarian crisis at the southern border, but many of us know 
that this is one in the President's own making. Migrants are 
enduring systemic human rights abuses. Children and adults 
alike are held in overcrowded processing pins, hungry and 
neglected. Families are being torn apart. More funds for these 
agencies only will fuel the perpetrators of abuse. Real change 
will require rescinding the policies causing the abuse, 
meaningful oversight, and a transformative approach to 
immigration law and policy.
    President Trump has described immigration at our southern 
border as an invasion of our country. The impact of such anti-
immigrant rhetoric regretfully is not limited to El Paso or 
border communities. At a congressional hearing in May, the FBI 
head of the FBI's Counterterrorism Division testified that the 
Bureau was investigating 850--I will repeat that--850 domestic 
terrorism cases and that, of those, 40 percent, almost half, 
involved racially motivated extremists. So this is 
unfortunately not news. It is not made up. It is facts.
    So, Dr. Munoz, I wanted to start with you because I really 
found your written testimony to be quite enlightening. I 
actually thought I knew a lot of our history. I am one of these 
people that, as the county attorney mentioned, that some of us 
are not as brown as others. I mean, I--look at me. [Speaking 
foreign language.] I could probably drive around and nobody 
would stop me. But that is the problem, isn't it, that it is 
based on color and it is based on race.
    And you actually say in your paper that this started back 
in the era, as the Chairman asked you some questions, I mean, 
the number of lynchings that you cite in your paper between 
1848 and 1928 was 547, half of which were in Texas almost, 232. 
It seems like Texas has always been like the training ground, 
the incubator if you will that starts a lot of this. I see my 
colleague, a former colleague Senator Rodriguez here, on S.B. 
4. And, you know, what is it about Texas? What do we need to 
change?
    Ms. Munoz Martinez. Well, Texas has a long history of white 
supremacy. I mean, it is a Nation that has intersecting 
histories of slavery, of genocide, and of colonization, and it 
is actually layered histories of colonization. And if we 
remember, for example, that the Texas Revolution was inspired 
in large part so that----
    Ms. Garcia. Well, and then there was----
    Ms. Munoz Martinez [continuing]. Anglo settlers could own 
slaves. And so the policing regime that then was developed to, 
quote unquote, ``protect'' Anglo settlers from Mexicans who 
were living in Texas before----
    Ms. Garcia. We all know the----
    Ms. Munoz Martinez [continuing]. West Texas----
    Ms. Garcia [continuing]. Texas Rangers.
    Ms. Munoz Martinez. Right, the State police officers, they 
targeted Mexican residents. They allowed enslavement to 
continue by hunting people who tried to seek freedom by 
crossing into Mexico, and they participated in genocide. And so 
our institutions of policing in Texas have a deep history of 
racial violence, and that is something that as a community we 
have to reckon with. And one of the things that we can do is by 
truthfully----
    Ms. Garcia. So have we seen any change at all, or is the 
Trump rhetoric similar to the rhetoric in the climate back 
then?
    Ms. Munoz Martinez. It is unsettling----
    Ms. Garcia. Is there any difference?
    Ms. Munoz Martinez [continuing]. How much of the rhetoric 
echoes certainly from members of the administration, from the 
President himself, but also from elected officials in Texas. 
The anti-immigrant sentiment, you know, for too long, the 
humanitarian crisis has been represented. People who were 
seeking refuge in the United States, children especially, were 
described as terrorists----
    Ms. Garcia [continuing]. Because when you say----
    Ms. Munoz Martinez [continuing]. And as cartel members.
    Ms. Garcia [continuing]. In your written testimony that 
there was public displays of the number of Mexicans murdered to 
show that things were in control, it kind of reminded me of the 
Vice President's visit to the valley where, you know, many of 
us as Members of Congress were even denied entry. We are 
certainly not in there with TV cameras. But I just saw that as 
a public display to show their base. Look, we are taking--look 
at all of them. They are caged.
    Ms. Munoz Martinez. It is----
    Ms. Garcia. They are----
    Ms. Munoz Martinez. Absolutely. It is a performance in 
nation-building.
    Ms. Garcia. It is the same thing, isn't it?
    Ms. Munoz Martinez. You can certainly look at the patterns 
and say something that really alarms me is especially when I 
see representations of Latinos primarily of being people who 
are under arrest or people who are being raided by ICE. When 
those are the representations of Latinos in this country, it 
enables other people to think that that is how Latinos should 
be treated, that they shouldn't be trusted and that they should 
be fearful of them.
    And so certainly when I look at the historical photographs 
and representations of Latinos, people in Texas who were 
murdered, police officers standing next to--posing next to dead 
bodies, I am deeply troubled by these representations.
    Ms. Garcia. Thank you. Apparently, I have run out of time. 
I heard her gavel me. I had a question for you, Ms. Bernal, but 
I will ask you after the session. Thank you, Madam Chair. I 
yield back.
    Ms. Escobar. I am so sorry to my colleague. I apologize.
    I now recognize my distinguished colleague from Colorado, 
Representative Neguse.
    Mr. Neguse. Thank you, Madam Chair, for holding this 
hearing, and thank you for your leadership. Also thank you to 
the El Paso community for being so welcoming to us Members from 
various different parts of the country. I happen to be from 
Colorado from the 2nd Congressional District, and it is great 
to be able to be here on my first trip to El Paso.
    You know, being here really gives Members like myself the 
chance to see and hear for themselves the real-life impacts of 
the Trump administration's policies at the border and the 
effects of the anti-immigrant rhetoric coming from the White 
House. I think we all have an obligation and a responsibility 
to speak out against hatred and against bigotry and against 
violence in our communities.
    I was moved by the testimony of each of the witnesses. Dr. 
Munoz, thank you for your very thoughtful tome, you know, just 
a very dark chapter. You know, at the University of Colorado 
Boulder, my alma mater and happen to represent that institution 
in Congress, there is a quote on the library from George 
Norlin, who was president of the university long ago, that 
essentially says he or she who only knows his generation or her 
generation will always remain a child. And so the ability to 
learn from the past is incredibly important.
    Ms. Bernal, I was very moved by your testimony. I am a son 
of immigrants. My parents are from East Africa. Madam Chair 
referenced the comment that the President made several years 
ago, which was an outrage to me and to many folks in my 
community. But I also--my wife is Hispanic, and we have a one-
year-old daughter who is Latina. And your comment about your 
children is very profound.
    And I guess what I am wondering is whether you can kind of 
expound on--you know, I was struck yesterday--we went, my 
colleagues and I went--Pramila and--Representative Jayapal and 
Representative Escobar went to the memorial outside of the 
Walmart, and I was struck by the outpouring of support in this 
community.
    Afterwards, we went to dinner. I would be remiss if I 
didn't say Representative Escobar promised us that El Paso 
would have the best enchiladas in the country, and she was 
not--and they did, so that was--she was not mistaken. But, as 
we were driving to the restaurant, what struck me, I saw a 
group of children playing. It was a sports game, a baseball 
game. And clearly this community is rallying and, you know, is 
showing what we all have read about over the course of the last 
several weeks, which is this sort of embodiment of El Paso 
strong.
    But I guess the question I have, Ms. Bernal, is as you talk 
to members of this community, you know, I--part of our 
challenge is to convince hearts and minds. And how do you 
explain the importance to someone who maybe disagrees with my 
worldview on immigration and the belief of the value of 
immigrants to this country and your worldview? How do we 
explain to them that the dehumanizing rhetoric that we hear 
from the White House and elsewhere has real consequences? How 
do you do that? I imagine you have many communications here in 
this community.
    Ms. Bernal. Right, thanks for that question. That is a 
really hard--I think it is a really hard question. What I try 
to do and what I encourage others to do is frankly what you all 
are doing. And thank you, Congresswoman, for inviting this 
committee here. I think that we can't ever accept any kind of 
hateful rhetoric as just the new normal. Sometimes it happens 
so much that it is exhausting to constantly push back on it. It 
is exhausting to constantly say that is not right, that we 
shouldn't accept it.
    So I think what we need from you all and what we need from 
each of us is that constantly pushing back. We can't let it go. 
It is not normal, and it is not right.
    But what I--my frustration sometimes in speaking to people 
who try to generalize that it is an overreaction, right, that 
you can't draw the line, you can't tie the two together between 
violence and speech. And so what I try to do is reinforce the 
idea I think that with some hateful rhetoric when it started, a 
lot of people said, well, you know, the rhetoric was directed 
at drug dealers, right? Those are those bad people. That is not 
us. Or it was directed at undocumented immigrants. Well, we are 
Americans, right? That wasn't directed at us.
    And so now what is the excuse, right? It was people in 
Walmart shopping for school supplies. And it didn't matter. 
There were people from other countries, but the person in 
looking to shoot brown people, he didn't stop to say are you 
undocumented. He didn't stop to say are you dangerous, right? 
You just happened to be there.
    So I think one of the messages in pushing back is that we 
are not talking about others. We are talking about you and your 
children and your mothers that are shopping in Walmart on that 
Saturday morning.
    Mr. Neguse. Thank you, Ms. Bernal. And I see my time is 
expired. I would just say you have my word and I think you have 
the word of this committee that we will continue to shine a 
light.
    Ms. Bernal. Thank you.
    Ms. Escobar. Thank you, Congressman.
    I now recognize my distinguished colleague, the gentlewoman 
from Texas, Representative Lee. Jackson Lee, I apologize. I am 
sorry.
    Ms. Jackson Lee. Thank you. It is my privilege to be here 
again and to be here in the presence of my distinguished 
colleagues and particularly, as I have indicated, but I want on 
the official Congressional Record a powerful and effective 
leader in the United States Congress in Congresswoman Escobar 
and to again thank her for the time and time and time that I 
have come to El Paso that I have had to walk across the border 
to discern what is going on and her accommodations and her 
welcoming for us to be able to, again, understand the crisis 
that is here.
    And I want to acknowledge the fantastic working 
relationship that she has established with all Members and her 
former colleague Beto O'Rourke, who was here as well, and our 
chairman. So thank you again for that.
    Let me try to be quick in my questioning. There is so much 
one wants to say, but let me read from a Time article on what 
is the definition--what does a terrorist look like? I would ask 
unanimous consent to the chairwoman to put this into the record 
dated August 19, 2019.
    Reading it, it says----
    Ms. Escobar. Without objection.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jackson Lee [continuing]. ``White supremacy is a 
greater threat than international terrorism right now.'' This 
is from a former U.S. attorney. ``I'd have to pursue a white 
supremacist with hate crimes unless he interfaced with al-
Qaeda. Does that make sense?'' And I asked my county attorney 
on that. We do not have a construct right now that allows us to 
deal with domestic terrorism. That is a task that the Judiciary 
Committee is going to take up immediately.
    And I would welcome your comments on the importance of that 
because I loved my colleague from Colorado saying hate is too 
much of a burden, and he is right. We must act with love. But 
to prosecute properly these heinous acts of terrorism from El 
Paso to Mother Emanuel to the Pulse nightclub, among others, to 
Christchurch, which is another country, there has to be a 
different construct.
    And I just want to remind not El Paso but the Nation of the 
pain. These are hardworking workers who were experiencing this 
heinous acts in Walmart. Of course, Walmart has done its own 
policies, which are corporate America can. One of the things 
they can do is to cease the manufacturers of guns and 
ammunition from funding the National Rifle Association. They 
can stop that right now because it is not a partisan issue that 
we are discussing here. It is to protect American citizens.
    And I have great respect for my Republican colleagues, but 
I wish they had come not because it is Democrats or 
Republicans, not because there was a heinous action El Paso, 
but because we care about America's safety and security.
    I want to go to the county attorney, and I ask for 
pithiness just because I am trying to get all three of you, but 
I was appalled at the scene that I could just imagine of 
Federal officers coming into a courtroom and dragging a 
domestic violence person out. Please tell me what that means, 
the collective body of immigration officials who I have worked 
with who are passionate men and women who have been 
reconstructed because of the policies of the Commander in 
Chief. What is that like? How chilling effect is that? County 
Attorney Bernal.
    Ms. Bernal. Thank you for the question. It was in fact 
quite chilling and stunning to everyone that was in the 
courtroom. One of the most disturbing parts of it is that, at 
the time, our Congresswoman was the county judge, and we did 
complain to Federal authorities. And we were told that a 
complaint or an investigation would be made by the inspector 
general, and we were never informed on the outcome of that 
investigation. So we don't know if there were any consequences.
    But I think that one of the things that Congress can do to 
really help is exactly what you are talking about. The law has 
to change in accordance with our changing standards and the 
changing conditions of our country.
    Ms. Jackson Lee. Thank you. Let me ask both Dr. Munoz 
Martinez, who is an alum, and Ms. Castillo. I have to get my 
questions in so you can answer them before the clock. Your 
concept of violence and how there was a fight on the border, 
you opened up that history of Mexico and border Anglos trying 
to retain control. But the point is how that translates into 
some people's minds about continuing that schism.
    And, Ms. Castillo, the YWCA has been enormously powerful in 
dealing with hate, with dealing with bringing communities 
together. What is that instruction? Both of you can answer 
first and second. Thank you.
    Ms. Munoz Martinez. Well, really quickly, I will just say 
that this wasn't Anglos who were trying to protect the border 
from Mexicans who were trying to invade. It was Anglos who were 
trying to claim a place in the border where they were new.
    Ms. Jackson Lee. Right.
    Ms. Munoz Martinez. And so they were actually trying to 
displace longstanding Mexican-American communities that had 
formally been a part of Mexico, Tejanos who had deep roots. But 
they were being portrayed, these citizens, these residents were 
being portrayed as the invaders, as people who were 
untrustworthy. And so part of the hard work is breaking through 
those representations to see what is actually at work in that 
violence.
    Ms. Jackson Lee. That is what I wanted you to clarify for 
me or for the record. And that carries forward sometimes in 
some thinking. Is that correct?
    Ms. Munoz Martinez. Absolutely, especially when I see 
border communities like El Paso where people live biculturally, 
binationally, and they----
    Ms. Jackson Lee. Yes.
    Ms. Munoz Martinez [continuing]. Have another imagination 
of what it means to live on the border. And for that to be 
attacked is something that is deeply troubling because it is a 
pattern. It is a historical pattern.
    Ms. Jackson Lee. So we needed to pierce that hatred, that 
kind of nationalism on the part of white nationalists and 
others. Ms. Castillo, thank you so very much.
    Ms. Castillo. And, Congresswoman, you know our history 
well, but just to answer your question, we empower women, but 
we know that in order for us to empower women, we have to 
address race. So for us, making sure that we address racism and 
we uplift women of color has always been paramount to us. And 
as we think about how our country and the racism that is being 
kind of fueled and the rhetoric that is coming together 
particularly with regard to immigration, our focus is making 
sure that we address racism, we talk about racism, but we also 
act upon racism.
    And our YWCAs are a safe place for that conversation, for 
that healing, and we have a multitude of programs and a 
multitude of activities to bring communities together. Just 
last night, we actually held a community healing process. We 
had over 200 community members here in El Paso led by our YWCA. 
And I have just beautiful anecdotes and conversations that 
members of the community brought together. So I would love to 
submit that to the committee.
    Ms. Jackson Lee. Please do. I would like to join you in 
Houston if I could on that kind of program.
    Ms. Castillo. Absolutely.
    Ms. Jackson Lee. Then I want to thank the committee 
chairwoman for her indulgence, and I yield back.
    Ms. Escobar. Thank you so much, Congresswoman Jackson Lee.
    This concludes the first panel of today's hearing. I would 
like to thank all of our distinguished witnesses on the first 
panel for participating in this hearing. We are going to take a 
very brief recess. We are just going to switch out a couple 
things. So if you have to leave the room for a health break, 
you will have to make a quick. And we will stand in recess for 
five minutes.
    [Recess.]
    Ms. Escobar. The Committee will reconvene to hear the 
testimony of our second panel. I will now introduce our second 
panel of witnesses. Our first is Shaw Drake. Shaw joined the 
American Civil Liberties Union of Texas Border Rights Center as 
policy counsel last year. In his current role, he is 
responsible for developing border-related advocacy strategies 
working closely with other ACLU border affiliates and ACLU 
national. Prior to joining the ACLU, Mr. Drake served as law 
clerk for the Honorable James Orenstein in the Eastern District 
of New York and an equal justice works fellow at Human Rights 
First, where he authored the report ``Crossing the Line: U.S. 
Border Agents Illegally Reject Asylum-Seekers.'' Mr. Drake 
received his B.A. from the University of North Carolina at 
Chapel Hill and his J.D. from the Georgetown University Law 
Center.
    Next, we have Linda Rivas. She is the executive director at 
Las Americas Immigrant Advocacy Center where she serves the 
needs of asylum-seekers and the immigrant and refugee community 
in El Paso, west Texas, and New Mexico. In 2016, Ms. Rivas also 
helped create the Borderland Immigration Council, a local group 
of attorney and advocacy groups formed to help address issues 
in the immigration system. Ms. Rivas was born in Mexico and 
raised in El Paso. She received her B.A. from the University of 
Texas at El Paso and her J.D. from Loyola College of Law in New 
Orleans.
    Then we have Fernando Garcia. Fernando is the founder and 
Executive Director of the Border Network for Human Rights, an 
organization that seeks to facilitate the education, the 
organizing, and the participation of marginalized border 
communities to defend and promote human and civil rights. As 
director, Fernando is responsible for facilitating the creation 
of human rights community-based committees and the training of 
human rights promoters in southern New Mexico, west Texas, 
Arizona, Houston, Dallas, San Jose, California, and New Jersey. 
Previously, Mr. Garcia served as the national coordinator of 
the National Movement for Legalization and Human Rights from 
2001 to 2006. He studied political science and Mexican 
archaeology at the National Autonomous University of Mexico.
    We welcome all of our distinguished witnesses on this 
second panel and thank them for participating in today's 
hearing.
    Now, if you would please rise, I will begin by swearing you 
in.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    Let the record show the witnesses answered in the 
affirmative. Thank you, and you may be seated.
    Please note that each of your written statements will be 
entered into the record in its entirety. I ask that you 
summarize your testimony in five minutes. And, just as we did 
with the first panel, we will have an iPad right over here 
helping us keep track of time. And our staff will be time you 
on that iPad and will raise it up when you have one minute 
remaining.
    Mr. Shaw, you may begin.

   TESTIMONIES OF SHAW DRAKE, POLICY COUNSEL, AMERICAN CIVIL 
LIBERTIES UNION OF TEXAS, BORDER RIGHTS CENTER; LINDA Y. RIVAS, 
EXECUTIVE DIRECTOR, LAS AMERICAS IMMIGRANT ADVOCACY CENTER; AND 
 FERNANDO GARCIA, EXECUTIVE DIRECTOR, BORDER NETWORK FOR HUMAN 
                             RIGHTS

                    TESTIMONY OF SHAW DRAKE

    Mr. Drake. Chair Escobar, Chairman Nadler----
    Chairman Nadler. Your microphone. Try it.
    Ms. Escobar. Try it again.
    Ms. Garcia. No.
    Ms. Escobar. No?
    Ms. Garcia. It is the little red light----
    Ms. Escobar. The little red light is on.
    Mr. Drake. The red light is on. There we go.
    Ms. Escobar. There you go.
    Mr. Drake. Thank you. Chair Escobar, Chairman Nadler, 
esteemed members of the subcommittee, thank you for the honor 
of appearing before you today, and thank you for coming to El 
Paso to hear firsthand the devastating realities playing out 
each day for so many along our border.
    I have the privilege of serving as attorney and policy 
counsel for the American Civil Liberties Union's Border Rights 
Center based here in El Paso, Texas. We at the Border Rights 
Center stand with border communities to defend and protect the 
United States constitutional guarantees of equality and justice 
for all to live freely, safely, and with dignity. Border 
communities want border policies that respect the culture and 
people who have lived here for generations, as well as 
newcomers to the region.
    Since taking office, the Trump administration has attacked 
the border and immigrants from every angle, attempting to 
implement an array of policy changes under a clear goal, keep 
immigrants of color out of the United States and do so at all 
costs no matter the violation to constitutional rights or basic 
decency that follows.
    First, it is very important to make clear the civil rights 
challenges along our border neither begin nor end with Trump. 
President Trump inherited a deterrence and enforcement-only 
approach to border policy and found in Customs and Border 
Protection or CBP a rogue agency free from accountability 
measures and ready to carry out his anti-immigrant agenda.
    CBP's culture of cruelty has been on national display in 
recent months but not because of the agency's own mechanisms 
for accountability or transparency. It took leaked screenshots 
to reveal the private Facebook group where agents posted racist 
and sexually violent content. It took text messages revealed in 
court for one Border Patrol agent's lawyer to argue his 
client's statement that migrants were, quote, ``disgusting 
subhuman shit'' was commonplace and part of the agency's 
culture.
    It took our complaints at the ACLU to the Office of 
Inspector General and subsequent investigations to reveal CBP 
was holding migrants, including children, for prolonged periods 
in dangerously overcrowded and inhumane conditions. It took 
years of ACLU litigation to reveal 30,000 pages of documents 
detailing shocking violence and abuse by CBP agents against 
children dating back to 2009.
    Much of Trump administration's policy changes along the 
border have focused on limiting or obstructing the ability of 
migrants to seek asylum in the United States. Instead of people 
finding safety and refuge, thousands subjected to Trump's 
policies have been consequently kidnapped, extorted, raped, and 
even killed in Mexico. Not only are we ignoring our legal 
obligations, we are literally turning our backs on those 
seeking safety and refuge at our door.
    This administration has dramatically expanded the use of 
metering, the practice of turning away asylum-seekers and 
severely limiting the number allowed to enter the United States 
at ports of entry. In July 2018, CBP turned away the Castro 
family, including their three children, leading to a six-month-
long ordeal in Mexico where they experienced gang-related 
threats, extortion, and were later kidnapped. Only after ACLU 
and congressional intervention where they processed.
    There are currently over 26,000 such asylum-seekers on 
metering lists waiting in northern Mexico. In addition, there 
is now 40,000 asylum-seekers, including babies and children 
with disabilities, returned to Mexico under the Remain in 
Mexico policy, officially known as the migration protection 
protocols. The region of Mexico to which migrants are being 
returned are among the most dangerous in the world, and 
documented cases reveal the devastating violence suffered after 
being returned under MPP.
    The U.S. Government's border policies are not only 
impacting recently arrived populations but everyday lives of 
those who call the border home. CBP claims exceptional 
authority within 100 miles of any international boundary, which 
encompasses two-thirds of the United States population. Agents 
nevertheless cannot pull anyone over without reasonable 
suspicion of an immigration violation or crime. Yet FOIA 
documents stemming from ACLU litigation reveal that Border 
Patrol is training its agents that facts such as, quote, 
``whether the passenger appeared dirty,'' can be used to 
justify a stop. Our country should be a place where everyone 
can travel freely to visit loved ones or seek medical 
assistance.
    The abuse of this administration cannot be fixed overnight, 
but if Congress is committed to addressing the underlying 
causes of Trump's violations at the border, it must shift 
immigration policy away from a deterrence-based enforcement-
only system to one that acknowledges humanitarian realities.
    U.S. immigration and border policies must be rooted in 
civil liberties and civil and human rights. This includes 
providing due process to those arriving in the country; 
safeguarding access to asylum protections; bringing 
transparency and accountability to CBP, the Nation's largest 
law enforcement agency; ending border militarization that harms 
border residents and migrants; and not giving DHS one more dime 
or detention bed.
    Border communities, including El Paso, have borne the brunt 
of Trump's cruelty-first approach. Border residents are looking 
to Congress to provide critical oversight of DHS, cut funding 
to CBP and ICE, and pass legislation to undo and redress the 
damage done by this administration while making structural 
changes to ensure that this abuse never happens again.
    Thank you, and I look forward to your questions.
    [The statement of Mr. Shaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. Thank you, Mr. Shaw. Ms. Rivas.

                  TESTIMONY OF LINDA Y. RIVAS

    Ms. Rivas. Thank you, Chairwoman Escobar, Chairman Nadler. 
Thank you so much to this esteemed committee for traveling to 
El Paso, Texas.
    For the past five years I have had the honor to serve at 
Las Americas Immigrant Advocacy Center. Las Americas is a local 
nonprofit organization dedicated to serving the needs of 
migrants specializing in asylum-seekers for the past 32 years. 
We are unwavering in our passion and in our mission, and this 
year that conviction forced us to travel to Mexico in order to 
continue helping asylum-seekers under the harmful Remain in 
Mexico policy.
    For years, we had worked to strengthen programs in our 
detention centers. We currently are helping--we currently 
represent the same hunger strikers that Chairwoman Escobar 
described today. But our resources had to be diverted to Remain 
in Mexico.
    Less than a week after the ill-named migrant protection 
protocol had been rolled out, Las Americas' phone started 
ringing off the hook. Our inclusion on a DOJ list, which I 
provided the committee today, was provided by DHS. And it was 
through this that they were able to call Las Americas. In 23 
weeks we have been able to capture over 600 phone calls. Those 
are only the ones that we have been able to answer and 
register. Eighty percent of the people who have called us 
report a fear of being in Mexico.
    We have been able to conduct with very little resources 
over 300 legal intakes across the border. We have successfully 
released 40 people from MPP based on vulnerabilities or fear to 
return in Mexico, we have taken on 10 cases for full legal 
representation thus far.
    We have witnessed nine pregnant women be subjected to be 
returned to Mexico, although they were over seven months' 
pregnant. We have witnessed three victims of rape, not raped by 
one but raped by multiple men. We have also represented a woman 
who was attempted raped--they attempted to rape her in front of 
her three-year-old child. That woman was sent back to Mexico 
despite her best efforts. She decided to give up her asylum 
claim and go home. I have not heard from her since.
    One day, a man, U.S. citizen from Miami, came to our office 
frantic. He needed help for his sister, a 44-year-old deaf and 
nonverbal woman who had been returned to Mexico under MPP. How 
can we justify a deaf nonverbal woman being returned to Mexico? 
Border patrol confirmed to me that an interpreter was never 
secured for her.
    Within less than 48 hours, Las Americas sprung into action. 
We were in Mexico, and the next day we represented her in 
court. While we successfully removed her from the program, we 
still have to consider that her brother and his family thought 
that she was dead for several weeks because of the inability to 
communicate with her.
    I have now unfortunately had to meet not one but two 
mothers who have been returned to Mexico with children with 
congenital heart issues. One mother, after being sent back more 
than once, was eventually let out. The other that I just met 
the other day has a son. When he is hyperactive, his lips turn 
purple. She was able to visit one doctor in Mexico, and the 
pastor from that same shelter paid for that medical care. They 
do not have a plan if the little boy were to lose 
consciousness.
    Just yesterday, I spoke to a client. Her case is on 
September 30. We have been ready for trial now for several 
weeks. The day before trial, my client's house was raided for 
drugs, so her trial was continued to September 30. But 
yesterday we spoke and she said [Speaking foreign language.] 
``Attorney, I just can't anymore.'' She has reached her end. 
She has reached her breaking point.
    This woman was returned to Mexico since April. She was 
kidnapped once for ransom. She was let go. She tried to live in 
a hotel. The hotel was almost robbed with her living with other 
single mothers and young children. And she took a 
nonrefoulement interview three times and did not pass. She has 
finally reached her wit's end.
    Her child was diagnosed with childhood anorexia, but the 
doctor says it could be something else but there is not enough 
money for them to conduct more tests. It doesn't matter that I 
am her attorney. It doesn't matter that we are ready to go to 
court. She has given up. She will be leaving on a bus Tuesday 
of next week.
    I will end with Remain in Mexico is not a representation of 
the beauty of this binational community. While hope does emerge 
from El Paso and Juarez, as it always does, the dangers that 
migrants face are so real that the shelter owners that help 
them ask migrants not to leave, not to talk in public, and to 
hide in order to remain safe. As we know, hiding is not 
acceptable under U.S. or international law. Thank you.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Ms. Escobar. Thank you so much. Mr. Garcia.

                  TESTIMONY OF FERNANDO GARCIA

    Mr. Garcia. Buenos dias. Chairwoman Escobar, Chairman 
Nadler, and all members of the Subcommittee on Immigration and 
Citizenship, I thank you for coming down to El Paso. Today, I 
am not representing myself but more than 1,000 families that 
live in New Mexico and El Paso area. My testimony will touch on 
three points. The first on the growth of the border and 
immigration enforcement apparatus, the second on the impacts of 
such enforcement in our communities, and thirdly, our 
reflection on how to move forward with a good and better 
narrative for the future of America.
    During the last thirty years since Operation Blockade in 
the early 1990s, our border from San Diego to Brownsville has 
become one of the most militarized borders in the world. 
Administrations of both parties have thrown our community under 
the bus for political gains.
    By 2018, CBP alone had a budget of $14 billion for border 
enforcement. Today, more than 23,000 Border Patrol agents are 
deployed between ports of entry and within our communities. We 
have more than 700 miles of fencing and walls, 12,000 
underground sensors, 170 aircraft and eight drone systems in 
our skies, 84 water vessels, nearly 500 surveillance systems, 
9,000 vision goggles, 6,000 thermal technology, dozens of 
immigration checkpoints and detention centers, thousands of 
National Guard elements and active-duty troops.
    All of this enforcement, of course that has an impact in 
our community. As of the 2010 census, 14 million Americans live 
within 100 miles of the border. This is not an empty, barren 
place, but this is a thriving community full of life. Border 
patrol checkpoints entrap people in our communities.
    One of our community leaders has a degenerative liver 
disease that can only be treated in San Antonio or Houston, but 
she cannot travel for surgery because she cannot pass the 
checkpoints. This region seems the only place in America where 
constitutional rights do not exist.
    Immigration enforcement agencies feel that they can do 
anything to our community with complete disregard of our 
rights. We see excessive use of force, sometimes lethal, 
against immigrant families and border residents. Agents enter 
properties and search homes without proper warrants. Agents use 
racism and racial profiling to stop, question, and detain 
people. Violations of the Fourth, Fifth, and Sixth Amendment 
rights have become the norm.
    Additionally, an average of 500 migrants die every year 
looking for the American dream. Since 1993, more than 10,000 
immigrants have perished in the deserts, mountains, and rivers 
of our border region.
    Today, border communities live in fear of the enforcement 
institutions that are supposed to protect them. We are 
subjected to a culture of abuse imposed by the harsh reality of 
detention, searches and arrests without merit.
    The U.S. has built the largest domestic enforcement 
operations with the safeguards for effective accountability or 
oversight. This is not a question if we need the enforcement at 
the border but a question of what type of enforcement do we 
want. Making agencies be accountable, respect our rights, know 
the Constitution, and stop separating families, all of this is 
the right and the just thing to do and in keeping with our 
Nation's values. Accountability to the community and 
transparency in their actions is not only a mandate but a moral 
obligation.
    I commend Congresswoman Escobar for introducing H.R. 2203, 
the Homeland Security Improvement Act, which brings the 
necessary accountability measures to border enforcement 
institutions. These include an oversight commission made up of 
border residents that can investigate enforcement strategies 
and practices; an ombudsman to oversee CBP, ICE, and USCIS; 
improvements in the complaint process; training rooted in 
civil, constitutional and human rights. We know that American 
Government works best with checks and balances. I encourage you 
to review it and to support it.
    In our history, border has been defined by the characters 
of the--have defined the character of their nation--of our 
nations. It was the Statue of Liberty and Ellis Island that 
represented the best ideals of America. This border here today 
is where the future of America will be shaped. We know that the 
U.S.-Mexico border can and must be the new Ellis Island of our 
era. The families that are arriving in El Paso today have the 
same hopes, aspirations and dreams as those teeming masses at 
Ellis Island a century ago.
    Today, we must decide what kind of America we want, decide 
what our future will be. Will America incarcerate families, put 
children in jails, build walls, let immigration agents act with 
impunity? Or will America accept its destiny as a nation of 
immigrants that is exceptional because of its inclusivity, 
diversity, and commitment to each other? Thank you.
    [The statement of Mr. Garcia follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. Thank you so much for that very powerful 
testimony.
    We will now proceed under the five-minute rule with 
questions. I will begin by recognizing myself for five minutes.
    I have been shocked in listening to this administration as 
they have denied the horrific conditions that migrants face in 
Mexico and that they have championed MPP as some kind of 
victory in alleviating humanitarian concerns when in fact all 
that this country has done is take the misery that has arrived 
at our front door and shoved it into our neighbor's yard. Those 
of us here in this community, not only do we see the misery but 
we can hear it.
    So, without objection, I would like to enter the following 
articles into the record as evidence for the administration 
that people are suffering in danger. The first is ``I am in 
Danger: Migrant Parents Face Violence in Mexico under New Trump 
Policy.'' The next is ``Trump's Remain in Mexico Policy Exposes 
Migrants to Rape, Kidnapping, and Murder in Dangerous Border 
Cities.'' And the third is ``Central American Migrants'' Plea 
to Seek Asylum in the U.S., Not Mexico.''
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. To our attorneys on the panel, you have 
detailed examples of the dangers faced by migrants when they 
are MPP'ed, but I think it is important for the American public 
to understand the challenges for due process and the challenges 
you face as legal advocates who have clients that have been 
sent to Mexico.
    So, Mr. Drake and Ms. Rivas, if you wouldn't mind with the 
remaining three minutes and 30 seconds, sharing that time, to 
detail that for the American public.
    Mr. Drake. Thank you, Chairwoman. I will start by saying 
the ACLU, just days after the implementation of MPP, filed a 
class-action nationwide lawsuit against the program in 
California because this program is blatantly and completely 
illegal. It is a program that cuts--it is meant to cut off 
asylum-seekers from their legal right to seek asylum in the 
United States. It denies them access to counsel, and it ignores 
a robust set of legislation passed by Congress for the handling 
of arriving asylum-seekers at our border. That includes a 
process to ensure that we are meeting our international and 
domestic legal obligations to ensure that we are not returning 
people to situations of ongoing persecution. And what MPP does 
is precisely that. It returns people to ongoing persecution in 
Mexico, and it exposes them to onward return to their home 
countries. So, as a baseline matter, it is completely illegal.
    What we have seen through our plaintiffs and through our 
documentation of the program since its inception is, as those 
articles detail and as the Congresswoman has explained, every 
migrant returned to Mexico under MPP is subjected to a 
heightened risk of violence and abuse. There is not enough 
shelters to house them. The Mexican Government cannot provide 
protection even if they tried. Migrants are a targeted group in 
Mexico for kidnapping and extortion. I think it was just 
reported today that groups such as Cubans are at even 
heightened risk of being targeted because they are perceived as 
having money. So what the Trump administration is doing is 
fueling organized crime's ability to take further advantage of 
this population.
    Ms. Escobar. And, Ms. Rivas, could you tell us, how hard is 
it for you as a lawyer to provide legal counsel to someone in 
another country?
    Ms. Rivas. It is incredibly difficult. We do not have 
office space in Mexico. We do not have the resources to acquire 
office space in Mexico. We are relying on unofficial 
relationships that we have with NGOs that happen to be in 
Mexico. One NGO, DHIA, Derechos Humanos Integrales en Accion, 
was the first nonprofit to offer us a space. One day from 
walking away from a governmental State office, the CAIM, Centro 
Atencion Integral el Migrante, it is essentially a center for 
migrant services, and I walked to DHIA. Thirty minutes later, 
there was a shooting in the same path that me and my colleagues 
had walked as we were conducting intakes that day. This was 
prior to August 3. I will say that I was definitely not used 
ever having to deal with gun violence in El Paso, Texas, and 
being there in Ciudad Juarez, it was very chilling as an 
attorney to have to deal with that.
    In addition to that, long wait times take me away from the 
office, takes me away from other clients, takes me away from 
court preparation to have to wait in line, one time to have to 
be subjected to secondary inspection. This is a huge challenge 
for us.
    And the reason that I provided this culled list of pro bono 
legal service providers that actually comes from the DOJ, from 
EOIR, is because this is continuously given to migrants that 
are placed in MPP by Border Patrol, by CBP, and by the judges. 
Sometimes repeatedly this same list is given over and over. And 
the reason this is so important is because of these four people 
on the list for the non-detained court, we are the only 
nonprofit agency that is regularly traveling to Mexico to 
conduct legal intake and to help people that are in MPP. Others 
on this list are open to taking cases, but they are not 
actually traveling into Mexico, and I think that is just very, 
very important for us to realize.
    Ms. Escobar. Thank you so much. Before I move on, I will be 
entering without objection three additional articles. Just as 
we try to deal with and face atrocities of one Trump 
administration policy, another one is always right around the 
corner. The most recent one is the assault on the Flores 
Settlement Agreement, so I would like to enter into the record 
``Trump Faces Longshot Bid to Jail Migrant Families 
Indefinitely,'' ``Three Reasons Why the New Flores Rule Does 
Not Pass Legal Muster,'' and ``Immigration Advocate Weighs in 
on Trump Administration's Move to End Flores Agreement.''
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. With that, I now recognize our chairman, the 
gentleman from New York, Representative Nadler.
    Chairman Nadler. Thank you very much. Mr. Drake, you spoke 
about the MPP program being illegal, and I think you have 
challenged it in court. What is the current legal status of 
that challenge?
    Mr. Drake. So we won a nationwide injunction finding the 
program illegal. The Ninth Circuit has stayed that injunction, 
allowing the program to proceed while the Court of Appeals 
considers the merits of the injunction. Two out of the three 
judges that reviewed the initial stay request by the government 
actually agreed with our legal arguments that the program is 
illegal. Nevertheless, they have allowed it to go forward at 
least until the next hearing in October when the Court of 
Appeals will hear the merits of that injunction.
    Chairman Nadler. So that is nationwide?
    Mr. Drake. Yes.
    Chairman Nadler. Okay. And the committee has been greatly 
concerned about CBP's attempts to restrict the number of people 
seeking asylum at ports of entry through metering. It obviously 
makes little sense to encourage people to seek asylum at ports 
of entry, don't use illegal entry, go to the ports of entry and 
then make them wait weeks or months to make their claim.
    The ACLU Border Rights Center sent a letter to the El Paso 
port director expressing concerns about port hardening and the 
closure of ports of entry as a way to avoid its lawful duty to 
process asylum-seekers, particularly Mexican nationals. 
According to your letter, CBP has even closed the entire port 
on some days, not just needed but just close them. My question 
is has CBP responded? And what justifications has CBP provided 
to these operations?
    Mr. Drake. The only public justification that CBP----
    Chairman Nadler. Have they responded to your letter?
    Mr. Drake. They have not.
    Chairman Nadler. Okay. Go ahead.
    Mr. Drake. We hope they do.
    Chairman Nadler. And when was your letter sent?
    Mr. Drake. Our letter was sent on Wednesday of this week.
    Chairman Nadler. Oh, okay. Go ahead.
    Mr. Drake. We will give them a few more days.
    Yes, so CBP, the only public justification CBP has provided 
for closing ports is the arrival of, quote/unquote, ``large 
groups of migrants.'' Information that we have received from at 
least one of those closures indicate that that supposed large 
group of migrants was a group of 20 Mexican families, including 
children, asylum-seekers, who were approaching the port of 
entry to assert their lawful right to seek asylum in the United 
States.
    More broadly, we have great concern around the port 
hardening. Any border barrier, razor wire, walls, all stand as 
a symbol of the xenophobic rhetoric of this Presidency and the 
port hardening, as CBP calls it, is another example of that. It 
also spews fear in the community and can be seen as an effort 
to turn local populations against the arriving immigrants 
because it creates a great deal of hardship for those who cross 
our border every day.
    Chairman Nadler. And what has been the impact of border 
communities of the border hardening, of the metering and----
    Mr. Drake. We have seen extremely long wait lines to enter 
the country. Thousands of people cross these ports of entry in 
the El Paso sector every day to go to school and work and visit 
family members and now face hour-long delays because CBP has 
restricted traffic down to one lane or closed the ports for 
many hours.
    The other concern is that every border crosser is crossing 
through what is clearly a militarized zone with razor wire, 
which perpetuates, again, this idea of fear and of an invasion 
that simply does not exist.
    Chairman Nadler. Thank you. Mr. Garcia, let me turn to you. 
Can you describe the change in numbers of Border Patrol 
personnel over the past 25 years in the El Paso area? And also, 
have you observed any change in the character or the way they 
behave?
    Mr. Garcia. Well, you know, I think we had seen the members 
being tripled in the last 23 years, and when we say that is 
that every time we had an immigration reform discussion in 
Congress, 2006, 2013, we didn't get immigration reform but we 
get more enforcement. Every time, we got more Border Patrol 
agents at the borders. So at this point, as I mentioned, we 
have more than 23,000 of them.
    And their behavior, it depends on the region of the border. 
In El Paso we have developed a good relationship with Border 
Patrol because we had engaged our communities and institutions 
with Border Patrol and make them accountable. But that 
accountability is gone for the last two years, so the Trump 
administration has destroyed any good relationship----
    Chairman Nadler. By doing what?
    Mr. Garcia [continuing]. In the community--by----
    Chairman Nadler. By doing what?
    Mr. Garcia. By curtailing the engagement of communities. We 
used to have regular meetings with Border Patrol in the past, 
and in the last two years, that is actually--that hasn't 
happened. There is more incidents of abuses being reported in 
our community than before to members that we didn't see for 
many, many, many years. So I think that is a major shift, 
especially in the last two years.
    Chairman Nadler. And, let's see, my time is expired. Well, 
let me just ask one more. How did the personnel additions, the 
additions in numbers, impact the border communities?
    Mr. Garcia. Well, I think you have two different levels. 
One of them it is that you see more Border Patrol members 
within our communities. They used to say that Border Patrol was 
only to protect the borderline, but that is not happening any 
longer. I mean, we see them within the 100 miles of the border, 
and that is impacting in ways that we had seen this before. I 
mean, illegal entries into property, questioning children, high 
school children, students in numbers that we had not seen 
before. So I think that is--and the numbers would matter, but 
would matter less if they would be trained and they would have 
some more accountability of the process and mechanisms to be 
accountable to, and we don't have those at the border. There is 
no formal mechanisms to actually make Border Patrol responsible 
for their actions.
    Chairman Nadler. Thank you very much.
    Ms. Escobar. Thank you, Chairman.
    Chairman Nadler. I yield back.
    Ms. Escobar. I now recognize the gentlewoman from 
Washington, Representative Jayapal.
    Ms. Jayapal. Thank you, Madam Chair. Thank you all for your 
very, very powerful testimony and, more importantly, thank you 
for your work. You really are on the frontlines.
    Yesterday, I observed the MPP court. I was there for about 
an hour and a half. And I had not observed an MPP court before. 
I have seen lots of other immigration courtrooms. And I think 
it is an absolute outrage that we call it a protection protocol 
because there is no protection for the migrants that are there. 
And, you know, the judges are trying to do the best they can, 
but about 250 to 300 I think yesterday on the docket, Ms. 
Rivas. I saw them handing out these sheets. I looked at the 
sheets. I saw that there were four on there. Now, I know that 
there is only one that actually travels into Mexico. Thank you 
for doing that.
    But I watched and listened over the course of an hour and a 
half as almost every single--I think there was one person in 
the hour and a half that we were there that we observed in two 
different courtrooms that had an attorney, that had 
representation. And there was the judge saying over and over 
again I can give you a continuance, can you try to find an 
attorney? And each person was saying I have tried. There are no 
attorneys, I have called, there is nobody here.
    And even at the point when they were asked do you have a 
fear of returning to Mexico, some of them raised their hands. 
Many of them said--you know, at least one person said, you 
know, very definitively I don't even want my interview because 
nobody listens to me, nobody is going to believe that I have a 
fear of returning.
    And so it is a terrible situation, not to mention we were 
told by the court officials that MPP has taken over the court 
proceedings, so they are now moving all the other cases that 
those courts should be considering to 2020, September of 2020. 
And each of these people that are coming in are coming in, 
potentially getting a continuance, but then they have to stay 
here, they have to return to Mexico, three months they are 
coming back, women in the courtroom with babies, crying babies.
    And so I say all of that because I think it is important--
this community knows, but hopefully we can get this information 
out beyond El Paso with this hearing.
    I wanted to ask Mr. Drake because one of the arguments that 
is made that is absolutely false and I want you to refute it 
for me if you will--I hope you can, I believe you can--is that 
this is the surge that is coming across that has required this. 
And there is no other way to deal with this. And so tell us, 
Mr. Drake, how we used--we have had surges in the past. Tell us 
the process that used to happen to process people in humane 
ways prior to MPP. Because it is possible to do that. We don't 
need these policies, and I just would like you to tell us 
exactly what used to happen.
    Mr. Drake. Sure. I will start by saying that although there 
was a surge in recent months of numbers, we are still well 
below historic highs of border crossers. There was well over a 
million border crossers annually back in the early 2000s at a 
time when the agency, I believe, had half the budget and one-
third the personnel. And so with an agency that has more than 
doubled in size is now faced with handling an even smaller 
population than they did in the past.
    What has shifted is the number of families entering, but 
the administration has known about that shift in numbers since 
2013. And again, this is a group of people who are crossing the 
border seeking out U.S. agents. They are not single adults 
attempting to evade inspection. And in fact many, as we have 
heard, want to go to ports of entry and actually present 
themselves.
    And so there is a broad set of immigration laws to process 
arriving asylum-seekers, including IIRIRA that was passed in 
1997. There are massive due process problems with that law, but 
there are robust laws on the books that Congress passed with an 
understanding that these are an attempt at respecting our U.S. 
and international obligations to ensure that people aren't 
returned to danger.
    You know, immigration courts have famously been said to be 
death penalty cases tried in traffic court.
    Ms. Jayapal. Right.
    Mr. Drake. And I would say that MPP hearings, you know, 
provide even a less degree of access to due process and to 
counsel than any other court in the Nation and certainly is not 
the way to handle the arriving population.
    Ms. Jayapal. It is a bit of a sham really because you are 
in a courtroom but you don't get representation, incredibly 
complex law.
    I wanted to enter, Madam Chair, into the record the Women's 
Refugee Commission report, actually filing of a complaint 
documenting 20 cases of MPP family separations. In many cases 
parents were reunited with their children months later after 
obtaining legal counsel. I would seek unanimous consent to 
enter that into the record.
    Ms. Escobar. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. Thank you. And in my remaining one second I 
wanted to ask Ms. Rivas, you know, what is the--out of the 400 
I think you said calls that you that you have taken--did I get 
that number right--how many people can you actually represent 
given your staff and your resources?
    Ms. Rivas. The reality is very little. Ten is really 
pushing it at this point. Unfortunately, of those, some had 
decided to go back home. But just to kind of really paint the 
picture for you, our staff grew in response to family 
separation and in response to horrific detention center 
conditions and prolonged detention. And when we have a 
partnership with the Southern Poverty Law Center that expands 
our capabilities to serve people on the detention center, we 
are thinking we are finally--you know, we are not going to be 
this scrappy nonprofit anymore. We are going to be built up.
    Then MPP hits, and then suddenly, the attorneys that we 
were able to secure for the detention program, they can't--we 
can't do MPP. So I found myself having to go myself because I 
am the director and I am not under any specific grant, and so I 
said okay, we are going to do this. And so the reality is, no, 
very little. We don't have the resources for it. And we found 
ourselves as a community also saying, you know, MPP has to come 
to an end, and we need to be calling for an end. So if we start 
expanding resources and writing grants, are we acquiescing to 
this program that this administration has thrust upon us?
    So we have been in an incredibly difficult position as a 
community. And the reality is that although, you know, we are 
one and although we have registered 600 phone calls and we have 
conducted 300 intakes, we are not able to take many of those 
cases.
    Ms. Jayapal. Thank you, Ms. Rivas, and thank you again for 
all of you for your work. I yield back.
    Ms. Escobar. Thank you. I now recognize the gentlewoman 
from Texas, Ms. Garcia.
    Ms. Garcia. Thank you, Madam Chair. And first, let me just 
say thank you to the lawyers. You know, often, when people talk 
about lawyers, it is really not good things that they say about 
us. So speaking as a lawyer--and I know there are some lawyers 
at the table and certainly here, let's hear it for the lawyers, 
everybody. They are doing a good job.
    And, quite frankly, these days, on many of our issues, Mr. 
Drake, we count on you and the ACLU and a number of other legal 
rights advocacy groups to go to the Federal courts to try to 
undo some of the damage that is being done.
    I know you have studied in Latin America. You know the 
situation in a lot of those countries. Regrettably, we have a 
President who just thinks that that is all fake news and that 
everything down there is hunky-dory and people are just coming 
here for spring break.
    Tell us, if you had to just try to explain to someone 
middle America across this country and why people flee, 25 
words or less, just get to the bottom line. Why are people 
coming to our country?
    Mr. Drake. They are coming to our country because staying 
at home means certain imminent threat to the lives of 
themselves or to their children, and not leaving is simply not 
an option.
    Ms. Garcia. It is not an option. It is life or death, isn't 
it?
    Mr. Drake. Absolutely.
    Ms. Garcia. And, Mr. Garcia--and, by the way, Garcia is a 
great name--you know, you have visited and talked to a lot of 
people who come for those very reasons, haven't you?
    Mr. Garcia. Yes.
    Ms. Garcia. And there are some people who actually think 
that the detention centers are better positioned than what they 
were, what they are fleeing. Some commentators, conservative 
commentators on Fox News have even said it is like summer camp. 
They get everything they need. They are being taken care of. 
What are you hearing here on the ground? Tell us a few stories 
to convince the American people that what we describe is not 
fake news, it is happening.
    Mr. Garcia. It is not true. Actually, we had interviewed 
several families both in Juarez and El Paso about the 
conditions in detention centers, and we released a report about 
that. You have it in my testimonial as an attachment. We had 
documented these situations that we had never seen and 
experienced for many years at the border or in the interior.
    For example, the fact that one kid was asking for milk, and 
there were bottles of milk there in one of these Border Patrol 
stations, and one of the agents, they just throw the milk to 
the dirt without giving that milk to that child, that was 
extreme. We had another situation with, again, Border Patrol 
and ICE officers gathering people in the courtyard of the 
detention center and with a hose they just water people because 
they were bathing them collectively with their clothes on.
    We never hear situations like that before. We are just 
throwing children and families in what is called hieleras, 
these extreme cold rooms where they get actually sick. And when 
they are released--and they can also--our friends can present 
testimonies--many of them actually are released sick with colds 
and with other kind of diseases because of the conditions that 
were there.
    So I think it is extreme. We never thought that we would 
see this in America. And they themselves, they are seeing that 
the conditions in those detention centers sometimes were worse 
than the conditions in their own countries.
    Ms. Garcia. Right. Can I ask you just real quickly, do you 
think it is worse in for-profit detention centers versus 
nonprofit detention centers?
    Mr. Garcia. It is. It is because, I mean, at least we think 
that there is a level of accountability for those detention 
centers run by the government.
    Ms. Garcia. Right.
    Mr. Garcia. I mean, we need more than that. I mean, that is 
why I am advocating for that----
    Ms. Garcia. Yes. I agree with you.
    Mr. Garcia. But what you have, private detention centers 
with no accountability, they don't have to report in many of 
these cases what are the conditions that they are in. We had 
also received letters from people within the detention centers, 
private detention centers explaining the conditions about the 
quality of food, medication, water. It is extremely terrible.
    Ms. Garcia. Right. I have visited both, quite a few on 
private and nonprofit, and I think I agree with you.
    Ms. Rivas, for you, are the immigrants being treated any 
better or worse in Mexico once they go back to Mexico or sent 
back to Mexico?
    Ms. Rivas. That is a great question. I have had the ability 
to tour the tents on the Mexican side of the border, and I have 
to say that I just found myself wondering--I am just going to 
be very honest with you--150 people are returned under MPP at a 
time, sometimes more, and what they have done with their tents 
is there is no sleeping space, there are just chairs. There are 
chairs, there are fans, there is fresh fruit, there is water, 
there is port-o-potties that frankly do not smell. You are in a 
pretty clean area under these tents on the Mexican side of the 
border.
    And I find myself wondering how is it that the Mexican 
Government is able to process so many people? You know, they 
get processed, they get their Mexican--it is called an FMM, 
your Mexican visa. And I found myself wondering how is it that 
they do this process in a way that is pretty efficient in 
comparison to us having people sleep under bridges, as they did 
in March?
    Many of the people that I encountered in MPP at the very 
beginning and in April, the very beginning weeks of this, had 
described sleeping under that bridge. They described sleeping 
on rocks. They described having the children sleep on top of 
their bodies so that the children wouldn't have to sleep on 
rocks. Rocks, gravel, dirt, construction material is what they 
told me.
    What you see in Mexico is a ton of resilience. Shelter 
system--well, not a shelter system, unofficial shelters that 
are just trying to pull themselves together, do the best that 
they can, people starting to rent homes, people living in 
hotels, it is not okay. They are essentially doing the absolute 
best they can. But what I see and what I witness is in many 
ways Mexico is doing the work that the United States should be 
doing in a way that is as dignified as possible. It is far from 
perfect, but it is something that we frankly should be ashamed 
of to not meet our international obligations.
    Ms. Garcia. Well, I think there is a lot of shame to spread 
around and on many of these policies, so thank you for the work 
that you are doing and to all of you. I yield back.
    Ms. Escobar. Thank you. Thank you so much. I now recognize 
the gentleman from Colorado, Mr. Neguse.
    Mr. Neguse. Thank you, Madam Chair.
    You know, first, I just would associate myself with the 
remarks of Representative Garcia in terms of thanking you all, 
as a lawyer, you know, the work that you all are doing each and 
every day and touching immeasurable lives here and across the 
State of Texas and really across the country, and so I thank 
you for that.
    You know, one of the reasons why these field hearings are 
so incredibly productive in my view is we get to learn new 
things that I didn't necessarily know before, but also it 
underscores some of the necessity in terms of the legislation 
that we are considering that I believe we ought to move forward 
on.
    And, you know, Mr. Garcia, you mentioned Representative 
Escobar's Homeland Security Improvement Act, which I couldn't 
agree with you more and think we ought to proceed with a Floor 
vote on that bill when we return from our work period.
    And with respect to your point about for-profit detention, 
I couldn't agree more. I believe we need to eliminate for-
profit detention entirely. We have a facility in Colorado that 
is for-profit. And of course the Dignity in Detention Act with 
our champion, Representative Jayapal's legislation that she has 
introduced. I believe we also should move forward and the 
Congress ought to move on that piece of legislation. So I thank 
you, every witness, for underscoring that.
    There are two facts in your testimony, Mr. Drake, that I 
thought bear mentioning. They were in your written testimony, 
and for me, they were very striking. The first is, quote, ``At 
least 12 migrants have died in CBP custody in the last year, 
including multiple children. Notably, there had not been a 
single death of a child in over a decade.'' That is a damning 
statement. And it demands the attention of this committee and 
of this Congress, and that is why we are here.
    I am wondering--I know this is a bit outside of the work 
that you are currently engaged in in terms of the litigation 
with respect to the administration's recent MPP policy and so 
forth, but I had a chance to visit a number of facilities 
yesterday, including the facility at Clint. And at the time we 
visited, there were, I believe, five unaccompanied minors, 
unaccompanied children. And of course this summer is the surge 
that you mentioned, you know, tens of thousands of children 
being housed in this area and at that facility being detained.
    I guess the question I have, Mr. Drake, is where are those 
children now? And I understand that, you know, they were 
released into ORR custody supposedly, but I guess does the ACLU 
have a good sense of what happened and where we go from here?
    Mr. Drake. I think it would be hard to say that we have a 
good sense of how anything within CBP operates. We obviously 
were not aware until the Flores Council visited Clint the 
degree of abusive conditions that were being perpetrated 
against children, and I think it brings it back to the central 
point of accountability and transparency within the agency. We 
simply do not know where children are being held, how many are 
being held, and for what period they are being held. CBP does 
not release that data publicly or to Members of Congress.
    I mean, there are examples of--Clint is a strong example of 
that that we did not know of the number of children being held 
there. Also, Congress of course didn't learn of the death of 
Jakelin Caal until many weeks later and until a news report 
broke that. And then it makes me think of the case of Carlos in 
the RGV who died on the floor of a Border Patrol station of flu 
symptoms and laid there on the floor with those symptoms for 
hours without any attention from an agent. And there has been 
no accountability for that death or any of the other 12 deaths 
in the past year and certainly none for the death of children.
    And so, as you mentioned legislation that Congress should 
be looking at and moving forward, the Dr. Ruiz bill around the 
care of children and then there needs to be robust legislation. 
Representative Escobar's bill is a step in the right direction, 
but there needs to be vast changes to how CBP operates and 
provides information to the public and provides access to 
detention facilities. Otherwise, we may never know where 
children are held and under what conditions they are held in.
    Mr. Neguse. Last question for--thank you, Mr. Drake. For 
Mr. Garcia, as I mentioned, there are, you know, facts that we 
learned that we didn't necessarily know before. I come from 
Colorado, which is, you know, a State very deep into the 
interior of the country, and so I don't know that I necessarily 
fully appreciated the context in which El Paso is located and 
the integration of this broad community across an international 
border. And as we were driving up, my good colleague 
Representative Escobar pointing out that Juarez is just a few 
miles from here, from where we sit.
    In your testimony, Mr. Drake, you mentioned that Border 
Patrol's interior enforcement operations encroach deep into and 
across the country because of the 100-mile zone and that almost 
two-thirds of the U.S. population lives within that 100-mile 
zone when you consider the entire continental United States.
    So, Mr. Garcia, the question is, you know, you talked a bit 
both in your oral testimony as well as your written testimony 
about the day-to-day impact, but I am curious if you can 
expound a little bit more about the impact of the operations 
that have been implemented over the course of the last several 
years on just day-to-day life in this very vibrant, robust 
community of El Paso.
    Mr. Garcia. Yes, thank you. And let me just say that this 
is just a concern. The concern is that I hope that from the 
legislative standpoint we don't only see the problems that 
Trump has created in the last two years but there have many 
problems in the last 30 years. It is what I call the 
militarization of the border and the criminalization of 
immigrants has been happening for many, many, many years.
    And we need to resolve MPP, metering, and other things, 
yes, but there are larger issues happening in our border 
community that were here long before Trump got elected. The 
only problem with Trump is that too many things start happening 
at the same time at the border infused with racism and white 
supremacy. I think that is the new framework that we have.
    But I mentioned one of the aspects of this militarization 
is that we live in communities and you can see in the 
communities that there is this extreme fear and uncertainty. 
When you have U.S. children, U.S. children running away when 
they see Border Patrol vehicles, I mean, these are U.S. citizen 
children, U.S. citizen children running away from Border Patrol 
vehicles, that means that something is deeply wrong in this 
region.
    Secondly, I mean, people are families. They have a mixed 
legal status. This was mentioned before. I mean, it is not that 
you have undocumented families in one community and the legal 
families or U.S. citizen families. We are all mixed. This is 
part of one community. And you have mothers afraid to go to 
take their kids to the school or to buy groceries or to the 
clinic because of these enforcement. And what makes it even 
worse, it is the policy, it is the practice, but also the 
narrative that is being permeated in the border that this is a 
special zone that constitutional rights do not apply, that law 
enforcement agents can do anything that they want.
    So I think that fear, that distortion, by the way, has 
penetrated within our communities in ways that we had not seen 
before. And that is why we are saying policy change is 
important, but also we need to build a better narrative, a 
successful narrative that recognizes that impunity and abuse is 
not normal and that respect of the Constitution should apply to 
the border.
    Ms. Escobar. Thank you. And I now recognize Rep. Jackson 
Lee, the gentlewoman from Texas.
    Ms. Jackson Lee. I thank the chairwoman very much. And let 
me just say that is the goodness of America, when good people 
like each and every one of you and those in this audience and 
those who we see when we go in field hearings around the Nation 
are courageous enough and open enough and experienced enough to 
be able to tell us the truth to fix this longstanding, broken 
process. I am grateful for each and every one of you and the 
witnesses beforehand.
    Let me be very clear. It seems to get a little murky. And 
certainly I think the tone of the present administration, 
without disregarding, Mr. Garcia, your comments, but having 
been back-and-forth in front of the border and over across the 
board or for decades-plus in my service in public office, I am 
going to testify and say that it was distinctive and different 
under President Obama.
    The reason I know that because I did come to the border 
when many, many children, as you remember in 2014, were coming 
across the border. And we opened up a number of settings. Those 
children came across, some came across with their parents or 
mothers, and they were allowed to stay together. And there was 
a difference. We were all trying to work to fix it, but there 
was a difference. And I think this is important to clarify.
    The other point to clarify is that immigrants don't have 
due process rights. Let me negate, deny, and rebut that is not 
accurate. There are limits when it is a civil proceeding, but 
if you step on the soil of the United States, they should be 
respected for those rights.
    And thirdly, to Mr. Drake, thank you for giving me time 
when I came here, and you know I went across the border. The 
MPP is a blatantly illegal program, period. I can't imagine 
that the circuit is going to find any basis in law because the 
administration has no basis in law for the MPP program other 
than what is a figment of their imagination. It should be 
crushed, stopped, denied, ruled unconstitutional, and we need 
to write a law that forever bans a silly program like that.
    I want to ask you and I will have to do bionic questioning 
again very quickly, but let me just ask all three of you to 
answer this question of the militarization of the border. Mr. 
Garcia, you articulately said it, but everyone can come at it. 
And this Posse Comitatus Act, the use of--and let me just say 
this. There are good men and women at Border Patrol, CBP, ICE. 
The reason is they are your neighbors. I see them. But what has 
happened is that it has been flipped upside down as to what the 
role is, and it is harmful.
    So, Posse Comitatus, great people in the Texas National 
Guard. They are at the border. Why? And so what has that impact 
been, and what is the public's understanding of U.S. military 
law and civilian law? Let me just--if you can take a note of 
that.
    Should we restructure these agencies so they get back to--I 
am appalled that they are not meeting with you. And the FBI is 
doing the same thing. You can't get the FBI unless you are a 
Republican to come and visit with your constituents for 
informational purposes.
    And then the last one is--and you all can just take it as 
you want if you can remember--the conditions--I think you have 
already spoken about that--the conditions in Mexico. Just to 
point if--Mr. Drake, could you weave in, did anything ever 
happen in the death of Claudia Patricia Gomez, who was shot 
down at the border? Is there any relief to this kind of 
violence?
    And, Ms. Rivas, in your answer if you can say anything 
about Sophia and the devastation of her example. I want to know 
whether we need to write specific laws added to the great work 
that is being done dealing with women and children.
    And then also, Mr. Garcia, we are going to write, working 
with my great chairwoman, to make sure that the private 
detention centers have the same responsible reporting that the 
other centers do. But if you can answer those questions, 
please.
    Mr. Drake. Sure.
    Ms. Jackson Lee. Mr. Drake, why don't you just go ahead 
and----
    Mr. Drake. Absolutely. So the military has no place on the 
U.S.-Mexico border. They are barred by law from conducting any 
law enforcement activity within the country, and they are 
getting dangerously close to doing that by being now stationed 
at detention facilities and at our ports of entry. Their 
presence add to the overall false narrative of a crisis and 
threat of an invasion at our border, which is simply not true. 
Their presence is not needed, and they should not be here.
    The case of Claudia Patricia Gomez, the ACLU is 
representing her family in a civil rights lawsuit in which we 
are seeking $100 million in damages for her death. A Border 
Patrol agent shot her while she was hiding in a ravine in the 
head and then lied to the American public about the 
circumstances surrounding that case until cell phone video came 
out that showed that she in fact had not attacked a Border 
Patrol agent and was in fact hiding in a ravine.
    Ms. Jackson Lee. No criminal charges.
    Mr. Drake. No criminal charges, and we do not know the 
identity of the agent that took that action.
    Regarding meetings or otherwise with Border Patrol, I think 
the broad call is that there needs to--what we have seen is 
that CBP will not release any information or provide any 
information to local communities or the public or Congress 
unless they are absolutely required to do so by a court of law 
or by legislation. And so anything short of legislation 
requiring them to reveal basic information, data----
    Ms. Jackson Lee. Right.
    Mr. Drake [continuing]. About their activities, they do not 
even collect data on stops that they conduct within the 100-
mile zone, and they certainly--because they don't even collect 
it, don't report it, and so therefore there is no ability to 
conduct oversight of their racial profiling of border 
communities throughout the 100-mile zone.
    I will leave the rest in time for my colleagues.
    Ms. Jackson Lee. That is right. Thank you. We are working 
on those issues. I hope you can work with us on that. Thank 
you.
    Ms. Rivas. Border militarization I just have to say, it 
means going into labor on November 30 and having a Border 
Patrol agent in the delivery area because he was there with a 
person he had apprehended it. And as an immigration attorney, 
that was the most unpleasant experience. I contacted one of my 
colleagues at the ACLU. She said there is nothing you could do. 
Just write a blog about it one day. That is what militarization 
in this border means. Helicopters at night is me telling my 
kids that it is probably Border Patrol agents, and they know 
what that means.
    Should we restructure these agencies to meet with us, and 
in so many ways, yes, we need to restructure. And the meetings 
will happen sometimes not in the way that they used to, but 
there is no true access, there is no true answers that are 
being given at these meetings. And the reality is for me we 
need access to counsel every step of the way from Border Patrol 
facilities to CBP holding under bridges to holding in bridges. 
We need access. When I walk a 19-year-old victim who was just 
raped and I am told I cannot be with her as her counsel, that I 
need to leave immediately and I need to stand down, that is not 
correct.
    The fact that an MPP court, again, we are on this list but 
yet we are not allowed to be even in the waiting room of that 
court. We are effectively shut out. We are told to wait 
downstairs. If we don't file an entry of appearance, we cannot 
speak to not one single person who is there for MPP court, not 
even to give basic information. We truly, truly need access as 
attorneys.
    Ms. Jackson Lee. Madam Chair, if you would allow, I think 
the chairman is getting ready to ask a question. I don't have 
the time. I was going to yield. But I just want to say those 
orders seem to be patently illegal. I don't know who has 
authority to keep you out of something that is called a court, 
a public court. Mr. Chairman----
    Ms. Escobar. Mr. Chairman?
    Ms. Jackson Lee. Did you want to say something?
    Ms. Escobar. You were wondering--you were going to ask Ms. 
Rivas----
    Chairman Nadler. I would just ask who makes that 
determination that you can't speak to people there, et cetera?
    Ms. Rivas. It is EOIR headquarters that have made that 
determination that----
    Chairman Nadler. OIR?
    Ms. Jackson Lee. Yes, in Washington, yes.
    Ms. Escobar. ORR.
    Ms. Jackson Lee. Right.
    Chairman Nadler. ORR.
    Ms. Rivas. Essentially, immigration court, the Executive 
Office of Immigration Review.
    Ms. Jackson Lee. Is----
    Chairman Nadler. The court can't make that determination?
    Ms. Rivas. No, the court themselves cannot. And, as a 
matter of fact, we don't exactly know what happened, but we 
have been told that we cannot speak to anybody who is in the 
MPP process even in giving what we, again, many of us on this 
list came together and made a script that was just simply a 
know your rights for people who are in MPP. We are not allowed 
to do that anymore. I actually witnessed--the only person that 
is giving information beforehand is the government attorney.
    Ms. Jackson Lee. No basis in law--may Mr. Garcia finish 
is----
    Ms. Escobar. Yes.
    Ms. Jackson Lee. Thank you so very much.
    Mr. Garcia. Thank you.
    Ms. Escobar. Mr. Garcia, and if we could wrap up. You have 
the final word.
    Mr. Garcia. Will do. The national emergency declaration of 
Trump is illegal and unconstitutional.
    Ms. Jackson Lee. Yes, sir.
    Mr. Garcia. And when I say that is because he went above 
you and above our communities----
    Ms. Jackson Lee. Yes.
    Mr. Garcia [continuing]. To not only use military resources 
but also deployed active-duty soldiers in our community, 
violating the Posse Comitatus Act. And the precedent of that is 
that if we allow the militarization of the border and we see it 
as normal, then that will happen in Houston, in Chicago, in New 
York. So we don't want to go that route.
    And finally, to say that we have been working with Border 
Patrol for 20 years, we had very good moments of 
accountability.
    Ms. Jackson Lee. That is right.
    Mr. Garcia. We had created a good engagement model. This is 
not about persons.
    Ms. Jackson Lee. Right.
    Mr. Garcia. This is about systems, systems that are broken, 
systems of oversight and accountability, and that is what we 
need to fix.
    Ms. Escobar. Thank you----
    Ms. Jackson Lee. Thank you.
    Ms. Escobar [continuing]. So much. Thank you, Congresswoman 
Jackson Lee.
    This concludes today's hearing. I would like to once again 
thank both panels of excellent witnesses for participating in 
this very important hearing.
    I would also like to thank El Paso. You all showed up. We 
have a packed house. I am so grateful to all of you for 
spending your morning with us and for showing my colleagues 
that we care very deeply about these issues and that we are 
going to help lead the way in reminding our country that we are 
a place of dignity, and the people who arrive at our front door 
deserve equal treatment in terms of dignity.
    Without objection, all members will have five legislative 
days to submit additional written questions for the witness or 
additional materials for the record. And I again just thank you 
so much to my incredible colleagues. I am so, so, so grateful.
    Without objection, the hearing is adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                       [all]
    
</pre></body></html>
